No. 19-131
In the

Supreme Court of the United States
__________________

DUANNA KNIGHTON,
Petitioner,
v.
CEDARVILLE RANCHERIA OF
NORTHERN PAIUTE INDIANS, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________
BRIEF IN OPPOSITION
__________________

Jack Duran, Jr.
Counsel for Record
4010 Foothills Blvd.
S-103, #98
Roseville, CA 95747
(916) 779-3316
duranlaw@yahoo.com
Counsel for Respondents

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Petitioner, Duanna Knighton’s Petition for Writ of
Certiorari takes issue with over one hundred years of
Indian tribal Supreme Court precedent and requests
the Court turn a blind eye on legal principals that have
been relied on by United States Courts for generations.
Petitioner begins with a striking proposal, that “Tribal
Courts at no time have jurisdiction over non-members.”
Further yet, that Indian tribal sovereignty, and the
principals upon which these Court precedents have
relied and which the Court has supported for decades,
are merely illusory. This is not the law.
This Court’s decision in Montana v. United States,
450 U.S. 544 (1981), has been settled law for nearly 40
years. Montana allows tribal-court civil jurisdiction
over nonmembers in two circumstances: (1) where the
nonmember entered a consensual relationship with the
tribe through commercial dealings or other
arrangements, or (2) where the nonmember’s conduct
has some direct effect on the political integrity,
economic security, or welfare of the tribe. Montana is
fully applicable to Petitioner Knighton as she was an
employee of the tribe for 17 years, and held the position
of Tribal Administrator—the top nonmember
position—for more than 10 years, overseeing daily
operations and finances. It was discovered that she
misappropriated tribal funds, acted with financial
conflicts, and negligently invested more than $3 million
in tribal funds, $1.2 million of which were lost. The
question presented is whether tribal jurisdiction exists
when she had this consensual relationship and her

ii
misconduct put the economic security and welfare of
the tribe at risk.
The Court should deny Certiorari, because the
principals on which this case was decided comports
with Supreme Court precedent and there exists no
circuit court split implicating Montana v. United
States, 450 U.S. 544 (1981); Water Wheel Camp
Recreational Area, Inc. v. LaRance, 642 F.3d 802, 814
(9th Cir. 2011), Plains Commerce Bank v., 554 U.S. 316
(2008) or for that matter Dollar General v. Mississippi
Band of Choctaw Indians, 579 U.S. ___ (2016). The
question of “Whether Indian Tribal Courts have
jurisdiction over non-members” and “What due process
rights are required” are well settled Supreme Court
precedent under the facts and law applied warrant
tribal court jurisdiction. Appellant’s petition should be
denied and the lower court’s decision AFFIRMED.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
I.

Factual Background . . . . . . . . . . . . . . . . . . . . 2

II.

Procedural History . . . . . . . . . . . . . . . . . . . . . 4

REASONS FOR DENYING THE WRIT . . . . . . . . . . 5
I.

Tribal court jurisdiction over nonmembers is
well-settled law and all courts have held or
assumed that jurisdiction exists for
qualifying tort claims . . . . . . . . . . . . . . . . . . . 5
A. Legal Precedent . . . . . . . . . . . . . . . . . . . . . 6
B. Petitioners’ Arguments . . . . . . . . . . . . . . . 8

II.

i.

Petitioner’s
On-Reservation
Conduct . . . . . . . . . . . . . . . . . . . . . . 8

ii.

Petitioner’s
Off-Reservation
Conduct . . . . . . . . . . . . . . . . . . . . . . 9

iii.

Petitioner’s Due Process Argument
. . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iv.

Dollar General is factually
distinguishable from this case. . . . 12

The circuit split on which petitioner relies is
illusory. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iv
i.
III.

IV.

Montana as Applied in the Tenth
and Eight Circuits . . . . . . . . . . . . . 17

The Ninth Circuit faithfully applied basic
principles of federal Indian precedent from
which petitioner now seeks to depart. . . . . . 20
i.

First Montana Exception . . . . . . . 22

ii.

Second Montana Exception . . . . . . 23

iii.

Tribal Adjudicative Authority . . . 26

iv.

Use of a Tribal Court Created After
Petitioner Knighton’s departure
from tribal employment does not
Undermine Due Process . . . . . . . . 26

This case is a bad vehicle for resolving
Petitioner’s Claimed Circuit Split and
Revisiting Dollar General . . . . . . . . . . . . . . . 28

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
APPENDIX
Appendix 1 Cedarville Rancheria
Judicial Code . . . . . . . . . . . . . . . . App. 1
Appendix 2 Cedarville Rancheria
Personnel Policies and Procedures
Manual . . . . . . . . . . . . . . . . . . . . App. 31
Appendix 3 Constitution and Bylaws of the
Cedarville Rancheria . . . . . . . . . App. 84

v
TABLE OF AUTHORITIES
CASES
Atkinson Trading Co. v. Shirley,
532 U.S. 645 (2001). . . . . . . . . . . . . . . . . . . . . . . 22
Attorney’s Process & Investigative Services, Inc., v.
Sac & Fox Tribe of the Mississippi in Iowa,
609 F.3d 927 (8th Cir. 2010). . . . . . . . . . . . passim
Crowe & Dunlevy, P.C. v. Stidham,
640 F.3d 1140 (10th Cir. 2011). . . . . . . . . . . . . . 15
DolgenCorp. v. Mississippi Band of Choctaw
Indians,
846 F. Supp. 2d 646 (2011) . . . . . . . . . . . . . . 13, 14
Dollar General v. Mississippi Band of Choctaw
Indians,
579 U.S. ___ (2016) . . . . . . . . . . . . . . . . . . . passim
El Paso Natural Gas Co. v. Neztsosie,
526 U.S. 473 (1999). . . . . . . . . . . . . . . . . . . . . . . 28
Evans v. Shoshone-Bannock Land Use Policy
Commission,
736 F.3d 1298 (9th Cir. 2013). . . . . . . . . . . . . . . 15
Fisher v. District Court,
424 U.S. 382 (1976). . . . . . . . . . . . . . . . . . . . . . . 20
Grand Canyon Skywalk Development, LLC v.
’SA’NYU WA Incorporated,
715 F.3d 1196 (9th Cir. 2013). . . . . . . . . . . . . . . 15
Iowa Mutual Insurance, Company v. LaPlante,
480 U.S. 9 (1987). . . . . . . . . . . . . . . . . . . . . . . . . 19

vi
MacArthur v. San Juan Cty.,
497 F.3d 1057 (2007) . . . . . . . . . . . . . . . . . . 16, 17
McCray v. New York,
461 U.S. 961 (1983). . . . . . . . . . . . . . . . . . . . . . . 28
McDonald v. Means,
309 F.3d 530 (9th Cir. 2002). . . . . . . . . . . . . . . . . 8
Merrion v. Jacarilla Apache Tribe,
455 U.S. 130 (1992). . . . . . . . . . . . . . . . . . . . . . . 11
Montana v. United States,
450 U.S. 544 (1981). . . . . . . . . . . . . . . . . . . passim
Myers v. Richland County,
429 F.3d 740 (8th Cir. 2005). . . . . . . . . . . . . . . . 24
Nat’l Farmers Union Inc. Cos. v. Crow Tribe,
471 U.S. 845 (1985). . . . . . . . . . . . . . . . . 20, 25, 26
Nevada v. Hicks,
533 U.S. 353 (2001). . . . . . . . . . . 16, 18, 19, 24, 28
Nord v. Kelly,
474 F. Supp. 2d 1088 (2008) . . . . . . . . . . . . . 16, 17
Oliphant v. Suquamish Indian Tribe,
435 U.S. 191 (1978). . . . . . . . . . . . . . . . . . . . . . . . 6
Osborn v. United States,
918 F.2d 724 (8th Cir. 1990). . . . . . . . . . . . . . . . 24
Phillip Morris USA, Inc. v. King Mountain Tobacco,
509 F.3d 932 (9th Cir. 2009). . . . . . . . . . . . . . . . 16
Plains Commerce Bank v. Long Family Cattle Co.,
554 U.S. 316 (2008). . . . . . . . . . . . . . . . . . . passim

vii
Smith v. Salish Kootenai College,
434 F.3d 1127 (9th Cir. 2006). . . . . . . . . . . 8, 9, 10
Strate v. A-1 Contractors,
520 U.S. 438 (1997). . . . . . . . . . . . . . . . . . 7, 17, 18
United States v. Hicks,
533 U.S. 353 (2001). . . . . . . . . . . . . . . . . . . . . . 7, 8
Washington v. Confederated Tribes of Colville
Indian Reservation,
447 U.S. 134 . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
Water Wheel Camp Recreational Area, Inc. v.
LaRance,
642 F.3d 802 (9th Cir. 2011). . . . . . . . . . . . passim
Window Rock Unified School District v. Reeves,
861 F.3d 894 (9th Cir. 2017). . . . . . . . . . . . 8, 9, 18
STATUTES
Indian Civil Rights Act, 25 U.S.C. §1302 . . . . . . . . 19

1
INTRODUCTION
Petitioner, Duanna Knighton, seeks review of a
question that is well settled law. It asks the Court to
re-decide the depth and breadth of Tribal Court
Jurisdiction over a non-member in a fact pattern that
is not unique and of which no due process issue arises
under the application of well- established Indian law
principals. The Ninth Circuit Court of Appeals found
that the Respondents, Cedarville Rancheria of
Northern Paiute Indians and Cedarville Tribal Court,
retained jurisdiction over Petitioner under two
separate well-reasoned Indian law precedents:
(1) Montana v. United States, 450 U.S. 544 (1981) twoprong analysis and (2) Water Wheel Camp Recreational
Area, Inc. v. LaRance, 642 F.3d 802, 814 (9th Cir.
2011), land based inherent sovereignty principals. The
application of both precedents has been utilized
throughout the nations District and Appellate Courts
for decades. The Court also found that the Tribe’s
regulatory authority did not exceed its adjudicative
authority under the facts of the case.
In granting Petitioner’s writ, the Court must
reverse not just one case, but multiple cases and ignore
the most important and well-reasoned Indian law cases
the Court has previously decided. These cases, as
applied by the Appellate Court to reach its reasoned
decision, do not result in the slightest due process issue
or a conflict within the Circuit courts. Certiorari
should be denied.

2
STATEMENT OF THE CASE
I.

Factual Background

The Cedarville Rancheria is a federally recognized
Indian Tribe. The Tribe’s Rancheria, seventeen acres of
federal trust lands, are located in Cedarville, Modoc
County, California. The Tribe’s Administrative Offices
are located in Alturas, California, approximately
twenty-three (23) miles from its land base and held in
fee simple.
The Tribe operates pursuant to a
Constitution, duly authorized by the Secretary of the
Interior and receives federal funds pursuant to its
government to government relationship with the
United States.
The Tribe is governed by its
Community Council, all eligible voting tribal members
eighteen years or over and in good standing with the
Tribe. The Tribe’s day to day operations are performed
by an Executive Committee, which consists of a three
(3) member council, Chairperson, Vice Chair and
Secretary. (Pet App. 35a)
Petitioner, Duanna Knighton, a non-member,
served the Tribe as an employee for 17 years.
Petitioner started her tenue with the Tribe in 1994 as
office help and worked her way up to the position of
Tribal Administrator, the Tribe’s top non-member post,
for over ten years. As Tribal Administrator, Petitioner
oversaw the daily operations of the Tribe, was
responsible for the Tribe’s finances, federal grants
(HUD housing, EPA, Department of Energy, Water),
oversaw member benefits, housing and investments.
Petitioner’s involvement with the Tribe over the course
of her tribal employment touched literally every facet
of the Tribe, its members and its federal lands.

3
Petitioner’s employment responsibilities with the Tribe
occurred within the Tribe’s federal trust lands in
Cedarville, California and on lands held in fee by the
Tribe, its Administrative Headquarters, currently in
the process of being placed in trust with the United
States, located in Alturas, Modoc County, California,
twenty-three miles from the Rancheria. (Pet App.6-7a)
In March of 2013, Petitioner abruptly resigned as
Tribal Administrator. Subsequent to her resignation
the Tribe authorized a forensic audit of the Tribe’s
books and records. What the audit uncovered was
shocking, it showed that Petitioner had inflated her
salary by siphoning federal grant money from tribal
programs, had lost $1.2 million dollars of the Tribe’s
investment funds, including funds for the Tribe’s
children, had encouraged the Tribe to purchase an
Administration office, without an appraisal, and
without disclosing she was an officer of the property
sellers corporation. Petitioner created a tribally funded
retirement account for herself, the account balance
inflated by overpayments by the Tribe, failed to
disclose to the Tribe several years of financial audits
that recommended stronger fiscal policies and internal
controls and upon resigning cashed out $29,000 in sick
leave and overtime pay against Tribal policy. (Pet
App. 10-11a)
During the period in which Petitioner defrauded the
tribe, her employment was subject to the Tribe’s
Personnel Policies and Procedures Handbook. (Br. in
Opp. App.31) Petitioner herself authored the Handbook
for the Tribe’s adoption as updated in 2011. The
Handbook placed Petitioner squarely under the

4
supervision and jurisdiction of the
disciplinary purposes. (Pet App. 6-7a)

Tribe

for

In September 2014, the Tribe filed suit against
Petitioner in its newly operating Tribal Court. The
Tribal Court’s formation had been in process shortly
after Petitioner’s resignation and was in full operation
within nine (9) months after Petitioner’s resignation.
The Tribal Court operates pursuant to tribal law and
has adopted the Federal Rules of Civil Procedure. The
Tribe has an Appellate Court comprised of three (3)
appellate judges for those cases requiring appellate
review. The Court is funded by U.S. Department of
Justice, BIA and Tribal funds. (Pet. App. 9-10a)
II.

Procedural History

As a threshold matter, all courts, tribal, tribal
appellate, federal district Eastern District of California
and the Ninth Circuit, applying both Montana and
Waterwheel have upheld tribal court jurisdiction
against Petitioner.
Upon receipt of the Tribe’s summons and complaint,
Petitioner filed a Motion to Dismiss, which was denied,
the trial court having found jurisdiction under both
prongs of Montana v. U.S., 450 U.S. 544 (1981)
(consensual contact and special effects). Petitioner
then appealed to the Tribal Appellate Court, which
affirmed the Tribal Court’s decision on jurisdiction.
Petitioner then appealed the issue of co-Defendant
R.I.S.E. Inc’s dismissal from the original lawsuit for
lack of jurisdiction, which was remanded to the Trial
Court for decision. The trial court found R.I.S.E. was
not a necessary or indispensable party. Thereafter,

5
Petitioner entered a stipulation with the Tribe to
pursue jurisdictional review via the Eastern District of
California Federal District Court. The Eastern District
dismissed her complaint finding jurisdiction under
Waterwheel v. LaRance, 642 F.3d 802, 814 (9th Cir.
2011). Petitioner appealed to the Ninth Circuit Court
of Appeals, which denied her appeal finding
jurisdiction could be found under either Montana or
Waterwheel. Petitioner’s Writ of Certiorari followed.
(Pet App. 11-13a).
REASONS FOR DENYING THE WRIT
There are four (4) independently sufficient reasons
for denying Petitioners Writ. First, Petitioner’s
Question concerning “Whether Tribal Courts have
Jurisdiction over Non-Tribal Members” has been
answered in the affirmative, with limitations, on
numerous occasions by the Court. Additionally, “What
Due Process is required” has also been previously
decided. Second, the Circuit split on which Petitioner
relies is illusory. Third, the Court of Appeals faithfully
applied basic principles of federal Indian precedent
from which Petitioner now seeks to depart and finally,
Fourth, this case is a bad vehicle for resolving
Petitioner’s claimed circuit split and revisiting Dollar
General.
I.

Tribal court jurisdiction over nonmembers
is well-settled law and all courts have held
or assumed that jurisdiction exists for
qualifying tort claims

Petitioner asks this court to again decide whether
Indian Tribal Court’s have jurisdiction over non-tribal

6
members. The Court has answered this question in the
affirmative on numerous previous occasions.
The Ninth Circuit Appellate panel held that the
Tribe retained jurisdiction under its right to exclude
nonmembers from tribal land and from the tribe’s
inherent sovereign power to protect self-government
and control internal relations. Waterwheel, 642 F.3d
802, 814 (9th Cir. 2011) The panel held that the Tribe
had the authority to regulate the non-member conduct
through its exclusionary power.
The panel also found jurisdiction was applicable and
the tribe had regulatory authority over Petitioner
under both Montana exceptions, which allow a tribe:
(1) to regulate the activities of nonmembers who enter
consensual relationships with the tribe or its members
and (2) to exercise civil authority over the conduct of
nonmembers on fee lands within its reservation when
that conduct threatens or directly affects the political
integrity, the economic security, or the health or
welfare of the tribe. Given the existence of regulatory
authority, the sovereign interests at stake, and the
congressional interest in promoting self-government,
the tribal court has jurisdiction over the tribe’s tort
claims. So as to not denigrate an already well reasoned
decision the Panel stated as follows as to the law of the
case:
A. Legal Precedent
Oliphant v. Suquamish Indian Tribe, 435 U.S. 191
(1978), the Supreme Court holds that Indian Tribes do
not have criminal jurisdiction over non-members.

7
Montana v. United States, 450 U.S. 544 (1981), the
Supreme Court holds that tribal civil jurisdiction exists
over non-members under two conditions: (1) where
there exists consensual relations between the Tribe and
non-member; and (2) when the non-member conduct
creates a Special Effect in that it threatens the political
integrity and financial security of the Tribe.
Strate v. A-1 Contractors, 520 U.S. 438 (1997) The
Supreme Court holds that Where Tribe’s have
authority over non-members civil jurisdiction
presumably lies with the Tribal Courts.
United States v. Hicks, 533 U.S. 353 (2001), the
Supreme Court clarifies Montana and holds that the
first Montana exception “consensual relations”, is about
private relationships, as in Petitioner’s case, and does
not apply when an overriding state interest exists.
Water Wheel v. LaRance, 642 F.3d 802, 814 (9th Cir.
2011). The Ninth Circuit holds that tribal regulatory
authority over non-members exists under a tribe’s
exclusionary powers.
Plains Commerce Bank v. Long Family Cattle Co.,
554 U.S. 316 (2008). The Supreme Court holds that the
sale of former trust land is not non-member conduct
that can be regulated. Here, Petitioner’s conduct was
on the Tribe’s reservation and she was a 17-year, high
level, tribal employee.
Attorney’s Process & Investigative Services, Inc., v.
Sac & Fox Tribe of the Mississippi in Iowa, 609 F.3d
927 (8th Cir. 2010), Eighth Circuit applying Montana
finds jurisdiction over non-member defendants under
the Second Montana exception and finds use of tribal

8
court set up after facts giving rise to tribal tort claims
arose does not implicate due process concerns.
Dollar General v. Mississippi Band of Choctaw
Indians, 579 U.S. ___ (2016). The Supreme Court on a
4-4 vote, upholds the 5th Circuit’s finding that civil
tribal court jurisdiction exists over a non-member
company tortfeasor employee. Footnote 3 of the 5th
Circuit’s Dollar General opinion, explains that all
circuits have held or assumed that there can be tribal
jurisdiction for tort claims under Montana exceptions.
B. Petitioners’ Arguments
i.

Petitioner’s
Conduct

On-Reservation

Petitioner argues that treating land ownership as a
dispositive factor in upholding a tribe’s power to
regulate nonmember conduct on tribal land (unless, as
in Hicks, there are significant state interests present)
is contrary to prior court rulings in McDonald v.
Means, 309 F.3d 530 (9th Cir. 2002), and Smith v.
Salish Kootenai College, 434 F.3d 1127 (9th Cir. 2006).
Petitioner is incorrect. In McDonald, the Court
recognized that a tribe’s jurisdiction over civil claims
against nonmembers arising on tribal land is limited
under Hicks only in cases where significant state
interests are present. See 309 F.3d at 540. And in
Window Rock Unified School District v. Reeves, 861
F.3d 894, 902 n.9 (9th Cir. 2017), the Court held that
Smith did not limit a tribe’s jurisdiction over civil
claims against nonmembers bearing a direct connection
to tribal land. The Court concluded that Smith was
distinguishable because it involved a nonmember

9
plaintiff, as opposed to a nonmember defendant, who
had entered into a consensual relationship with the
tribe by filing his action in tribal court. Id.
Petitioner’s argument that a tribe’s regulatory
power over nonmember conduct on tribal land is
limited to conduct that directly interferes with a tribe’s
inherent powers to exclude and manage its own lands
is also unavailing. In Window Rock, the Ninth Circuit
concluded that the tribal court’s jurisdiction over
employment-related claims that did not involve access
to tribal land was plausible; accordingly, it held that
the nonmember defendants were required to exhaust
their tribal court remedies before proceeding in federal
court. Id. at 896, 906. Moreover, limiting a tribe’s
regulatory power over nonmember conduct to that
which directly interferes with a tribe’s inherent powers
to exclude and manage its own lands, as Petitioner
suggests, would restrict tribal sovereignty absent
explicit authorization from Congress—an approach we
specifically rejected in Water Wheel. See 642 F.3d at
812 (stating that the tribe’s right to exclude
nonmembers from tribal land includes the power to
regulate them “unless Congress has said otherwise, or
unless the Supreme Court has recognized that such
power conflicts with federal interests promoting tribal
self-government”). (Pet App. 19-20a)
ii.

Petitioner’s
Conduct

Off-Reservation

Petitioner also argues that Water Wheel’s right-toexclude framework is inapplicable here because some
of her alleged misconduct occurred off tribal land, after
the tribal administrative offices were relocated to fee

10
land owned by the Tribe. Although the Tribe’s
complaint does not allege precisely where the conduct
at issue occurred, most of the claims alleged against
Petitioner involve conduct that took place on tribal
land, before the Tribe’s administrative offices were
moved in mid-2009 to the RISE building in Alturas,
California. Moreover, the facts of this case are unique
in that any claims that may have arisen outside tribal
land are based on alleged misconduct and
misrepresentations made by Petitioner on tribal land.
See Smith, 434 F.3d at 1135 (stating that jurisdictional
inquiry is not limited to deciding precisely when and
where the claim arose, but whether it bears some direct
connection to tribal lands). For example, the $29,925
overpayment for unused vacation and sick leave that
the Tribe seeks to recover stems from
misrepresentations that Petitioner allegedly made
throughout the course of her employment, before the
Tribe’s administrative offices relocated. In addition,
the relocation of the Tribe’s administrative offices from
tribal land to the RISE building on tribal fee land was
allegedly due to misrepresentations by Petitioner.
iii.

P et it ion er ’s
Argument

Du e

Pr oc ess

Petitioner further argues that even if the Tribe had
the power to regulate her conduct on tribal land during
the course of her employment under Water Wheel’s
right-to-exclude framework, the Tribe’s authority is
limited to the regulations that were in place during her
employment—which is to say, those provided for in the
Personnel Manual. Petitioner contends that the Tribe
is attempting to impose new regulations on her through

11
tort law after she left her employment with the Tribe.
This is not the case.
A tribe’s power to exclude nonmembers from tribal
lands permits a tribe to condition a nonmember’s entry
or continued presence on tribal land, see Merrion v.
Jacarilla Apache Tribe, 455 U.S. 130, 144–45 (1992),
but this inherent power does not permit the Tribe to
impose new regulations upon Petitioner’s conduct
retroactively when she is no longer present on tribal
land. Both the District and Appellate Court held that
Petitioner’s alleged conduct violated the Tribe’s
regulations that were in place at the time of her
employment.
The Personnel Manual regulated
employee conduct including, but not limited to,
Misfeasance or malfeasance in the performance of duty,
incompetency in the performance of job duties, theft,
carelessness or negligence with the monies or property
of the Rancheria, inducement of an employee to act in
violation of Rancheria regulations, and violation of
personnel rules—all conduct that forms the basis of the
Tribe’s claims against Petitioner. Further, Petitioner
had notice of these regulations because she, herself,
was responsible for drafting the Personnel Policy
Handbook adopted by the Tribe.
Petitioner’s due process argument fails because the
law and potential damages applied to her was the law
in effect at the time of her employment. The only
change is the forum, from the Tribe’s Community
Council to an independent third-party judge, has
changed.
Ironically, by the Tribe changing its
adjudicative forum from tribal member adjudicated to

12
a professional tribal court, Petitioner does not have to
face, and be judged, by the members she defrauded.
iv.

Dollar General is factually
distinguishable from this case.

Petitioner, for the first time in five (5) years of
litigation now makes the claim that the Court should
Grant the petition because of the Court’s 4-4 split in
Dollar General v. Mississippi Band of Choctaw Indians,
579 U.S. ___ (2016). Dollar General is neither factually
similar nor relevant to Petitioners’ Questions
Presented. Although both involve tort claims, their
similarity dramatically diverges from there. Dollar
General concerned a tribal lessee’s employee who was
haled into tribal court by the Tribe for alleged torts
against a tribal member minor intern. Dollar General
alleges there was no lease agreement between Dollar
General and the Tribe conferring court jurisdiction and
that the Dollar General manager accused of the assault
lacked authority to bind Dollar General to the Tribe’s
jurisdiction.
By contrast, Petitioner Knighton was a tribal
employee for seventeen (17) years, employed by the
Tribe as its Tribal Administrator, the highest-level nonmember position within the Tribe. Petitioner oversaw
the Tribe’s finances, business and land base.
Petitioner, herself, wrote the Personnel Policies and
Procedures that the District Court, as affirmed by the
Ninth Circuit, found applicable to her. The procedures
also provided Petitioner the appropriate notice of the
Tribe’s power that could be used against her for claims
of malfeasance of duty. Petitioner was also aware of the
Tribe’s power and herself utilized it first-hand, having

13
disciplined and terminated tribal employees and
vendors, some tribal members, on behalf of the Tribe.
Any inference by Petitioner that she was oblivious to
the Tribe’s power to exclude is disingenuous.
In the tribal and federal district and appellate
courts Dollar General argued that under Plains
Commerce Bank, jurisdiction was lacking because the
tort claims did not implicate tribal governance or
internal relations. DolgenCorp. v. Mississippi Band of
Choctaw Indians, 846 F. Supp. 2d 646, 650–51 (2011).
The district court explained:
“The parties disagree as to the meaning and import
of Plains Commerce Bank with respect to the first
Montana exception. Plaintiffs submit that under the
Court's interpretation of the exception in Plains
Commerce Bank, no longer will every consensual
relationship between a nonmember and a tribal
member occurring on the reservation be sufficient to
establish tribal jurisdiction over claims with a nexus to
that relationship; rather, only those consensual
relationships that are evaluated and determined to
have an impact on tribal self-governance or internal
relations will trigger tribal jurisdiction. Plaintiffs
contend that since the consensual relationship here
involved does not implicate tribal self-governance or
internal relations, then the exception does not apply
and there can be no basis for tribal jurisdiction.
Defendants, on the other hand, maintain that nothing
in Plains Commerce Bank altered the basic Montana
framework and that to establish applicability of the
consensual relationship exception, no showing is
required to be made beyond the existence of the

14
consensual relationship which supports a finding of
consent to tribal jurisdiction, and the nexus between
the consensual relationship and exertion of tribal
authority. According to defendants, it is implicit in
Montana and its progeny that the right of Indian tribes
to self-governance includes the right to adjudicate civil
disputes arising from voluntary consensual
relationships between tribes and their members and
nonmembers. That is, disputes arising from membernonmember or tribe-nonmember consensual
relationships are deemed as a matter of law to impact
tribal rights of self-government sufficient to permit the
exercise of tribal court jurisdiction to adjudicate such
disputes. Id. at 652-53 (footnote omitted). The district
court agreed with the tribal defendants’ position,
stating that “although a number of post-Plains
Commerce Bank cases have considered the consensual
relationship exception, none has identified the
additional showing advocated by plaintiffs as a
prerequisite to its application.” Id. at 653-54 & n. 3.”
Accordingly, the district court concluded that tribal
court jurisdiction was permitted under the
first Montana exception. Id. at 654.
Here, in contrast to the facts in Dollar General,
Petitioner was the highest-level non-member employee
of the Tribe and as Tribal Administrator Petitioner
oversaw every aspect of tribal life. Even if Plains
Commerce Bank altered Montana to requires conduct
implicating tribal governance and internal relations to
establish jurisdiction, such conduct could easily be
found. Petitioner’s malfeasance touched every aspect
of the tribe, from its government, its federal funding,
members, housing and tribal lands. (See Cedarville

15
Rancheria Personnel Polices and Procedures, Sec.1
Positions Tribal Administrator –“Tribal Administrator
is responsible for overall supervision and management
of the Cedarville Rancheria. . .”(Br. in Opp. App.31)).
Petitioner as a tribal insider had the opportunity to
manipulate the Tribe and its policies and procedures to
her benefit, unlike the employment of a tribal
custodian who lacks high level insider influence.
Because the facts of the instant case are easily
distinguishable from Dollar General, and the Tribe
would meet any tribal governance and internal
relations nexus if in fact such a requirement exists, the
Petition should be denied.
Finally, there is unanimity among the Circuits
which have addressed the issue that this Court’s ruling
in Plains Commerce did not change anything about the
consensual relationship exception or the nexus test.
Pet.App., pp.15-18; Evans v. Shoshone-Bannock Land
Use Policy Commission, 736 F.3d 1298, 1303 (9th Cir.
2013) (citing Plains Commerce and applying Montana’s
consensual relationship exception without change);
accord, Grand Canyon Skywalk Development, LLC v.
’SA’NYU WA Incorporated, 715 F.3d 1196, 1205-1206
(9th Cir. 2013); Water Wheel, supra at 810-820 and n.6
(affirming tribal court jurisdiction over contract and
tort claims under Montana exceptions as regards onreservation lease and post-lease disputes between tribe
and non-Indian parties, rejecting arguments that
Plains Commerce changed the rules regarding the
consensual relationship exception); Crowe & Dunlevy,
P.C. v. Stidham, 640 F.3d 1140 (10th Cir. 2011)
(affirming district court’s application of the consensual
relationship test after Plains Commerce; affirming that

16
the Montana test is satisfied by proof of a consensual
relationship and “a sufficient ’nexus’ between that
relationship” and the subject tribal court claim, without
any suggestion that any separate proof of special harm
to the tribe’s right of self-governance or internal affairs
was required); Attorney’s Process, supra at 936, 937-946
(8th Cir. 2010) (recognizing that Plains Commerce left
intact the basic Montana framework and its two
exceptions); Phillip Morris USA, Inc. v. King Mountain
Tobacco, 509 F.3d 932, 937, 940-942 (9th Cir. 2009)
(“Montana, Strate, and Hicks. . .are affirmed in
important respects by the Court’s most recent tribal
jurisdiction decision in Plains Commerce;” expressly
rejecting the argument that a special showing of
significant harm to the tribe’s political existence or
internal relations is required to invoke the consensual
relationship exception). In sum, Plains Commerce did
not alter the Court’s Montana analysis and the Petition
should be denied.
II.

The circuit split on which petitioner relies
is illusory.

Petitioner encourages the Court to review what she
perceives is a jurisdictional split over the Ninth Circuit’s
decision in Nevada v. Hicks, 533 U.S. 353 (2001)
contrasted with those of the Tenth Circuit in MacArthur
v. San Juan Cty., 497 F.3d 1057 (2007), Eighth circuit
(Nord v. Kelly, 474 F. Supp. 2d 1088 (2008).). Moreover,
Petitioner conflates the Montana test and the landbased analysis of Water Wheel v. LaRance, to arrive at
her conclusion. The split is pure fantasy.

17
i.

Montana as Applied in the Tenth
and Eight Circuits

The MacArthur Court applied Montana’s two-prong
approach to find jurisdiction over a County run medical
facility, located on tribal land. The court held that
because the clinic was located on tribal land and a
contract existed for medical services between the Tribe
and County, a “consensual relationship” existed
satisfying Montana’s first prong. This case is
analogues to the facts in the instant case. Petitioner
performed acts within the Tribe’s jurisdiction and the
Appellate Court found that the consensual relationship
between the Tribe and Petitioner satisfied Montana’s
first prong. The Court then looked at Petitioners
position within the Tribe, Tribal Administrator, her
responsibilities, and the alleged tortious acts to
conclude Montana’s second prong, “special effects” had
also been met. Hence, McArthur (Eighth Circuit) and
Montana (Ninth Circuit) are not adverse, they are in
perfect harmony.
By contrast, the Eighth Circuit decision in Nord v.
Kelly did not even apply Montana, the case was decided
using Strate v. A-1 Contractors, 520 U.S. 438 (1997)
because the auto accident giving rise to the claims
occurred on a highway running through a reservation
and there existed no treaty between the State and
Tribe to permit tribal court jurisdiction. See Nord,
supra, at 1093 citing Strate v. A-1 contractors “This
case is controlled by the Supreme Court's decision in
Strate, holding that “tribal courts may not entertain
claims against nonmembers arising out of accidents on
state highways, absent a statute or treaty authorizing

18
the tribe to govern the conduct of nonmembers on the
highway in question.” 520 U.S. at 442, 117 S. Ct.
1404.).
Respondent Tribe’s lands on which Petitioner’s acts
occurred are not the “no mans” land of a state highway
as found in Strate. They are federal trust lands, of
which Petitioner concedes she visited numerous times
over the course of her 17-year employment with the
Tribe and fee lands containing the Tribe’s
Administrative Office, lands preparing to be placed in
federal trust. The Tribe’s Constitution, passed while
Petitioner was in the Tribe’s employ, enumerates both
trust lands and lands in fee are subject to the Tribe’s
regulatory jurisdiction. APPX 3, App. 87, “Territory”.
Petitioner’s purported “split” is based on a single
statement referenced in the dissent in Window Rock
Unified School District v. Reeves, 871 F.3d 894 (9th Cir.
2017), citing another case Nevada v. Hicks. Petitioners
split is the belief that the Appellate Court did not apply
Montana’s two -prong approach in finding Tribal Court
jurisdiction was appropriate as against Petitioner,
because no competing state interest existed - this did
not happen. A review of the appellate opinion
demonstrates the Appellate Court went to great
lengths in its jurisdictional analysis in applying both
prongs of Montana to find jurisdiction over Petitioner
under Montana. The Court then analyzed the case
under the Water Wheel analysis and found that
jurisdiction could be found there as well. Thus, the
Ninth Circuit held jurisdiction proper under either
Montana, as held by the Tribal Courts or Water wheel,
as held by the Eastern District of California.

19
Petitioner’s invocation of Hicks, is completely
baseless and inapplicable to this case. Although Hick’s
is important to the overall Montana analysis when a
court is faced with competing government interests, it
is inapplicable here because the facts do not involve
State officers enforcing state criminal laws upon a
reservation to create such a conflict. This case is a civil
matter between an Indian tribe and its 17-year
employee who committed malfeasance while
performing her employment duties on the Tribe’s
Reservation and fee lands. The State does not have a
scintilla of an interest, compelling or otherwise, in the
Tribe’s claims against Petitioner or the outcome.
Further, any due process concerns with Tribal Courts
such as perceived bias and incompetence, etc., were
previously decided as frivolous in Iowa Mutual
Insurance, Company v. LaPlante, 480 U.S. 9, 18 (1987)
(See “(d) Petitioner's contention that local bias and
incompetence on the part of tribal courts justify the
exercise of federal jurisdiction is without merit, since
incompetence is not among National Farmers Union’s
exceptions to the exhaustion requirement, and would
be contrary to the congressional policy promoting tribal
courts’ development, and since the Indian Civil Rights
Act, 25 U.S.C. §1302, protects non-Indians against
unfair treatment in tribal courts. Pp. 480 U.S. 18-19.”
It is clear that in the absence of a competing state
interest tribal court jurisdiction is proper as against
Petitioner. “Tribal authority over the activities of nonIndians on reservation lands is an important part of
tribal sovereignty. See Montana v. United States, 450
U.S. 544, 450 U.S. 565-566 (1981); Washington v.
Confederated Tribes of Colville Indian Reservation, 447

20
U.S. 134, 152-153 (1980); Fisher v. District Court, 424
U.S. 382, 387-389 (1976). Civil jurisdiction over such
activities presumptively lies in the tribal courts, unless
affirmatively limited by a specific treaty provision or
federal statute. Id. at Pp. 480 U.S. 18-19.
III.

The Ninth Circuit faithfully applied basic
principles of federal Indian precedent from
which petitioner now seeks to depart.

The Ninth Circuit applied the principals of federal
Indian law correctly to the facts presented in this case.
Petitioner’s arguments are contrary to established law.
Petitioner repeatedly states throughout the Petition
that “Tribal Courts do not have jurisdiction to
adjudicate non-member private tort claims” - this is not
the law. While Tribal Court jurisdiction is not to be
presumed, under the Montana two prong approach and
Waterwheel’s land - based formula, these tests set forth
the analysis utilized to determine when Court
jurisdiction is proper.
Montana’s first prong, “consensual relations” seeks
to analyze whether relations between the Tribe and
non-member are such that jurisdiction would not result
in a violation of “fair play and substantial justice”.
Hence, under the first prong, contractual based
relations are usually sufficient to hale the non-member
into the tribes’ forum. The second prong of the
Montana analysis “special effects”, requires that the act
“imperil the Tribe and have some effect on the Tribe’s
political and economic security or the health and
welfare of the Tribe.” Plains Commerce Bank citing
Montana. The acts Petitioner is accused of easily meet
these requirements.

21
The Ninth Circuit held that Petitioners tortious acts
were such that they satisfied both prongs of the
Montana test. The Court applied the first prong and
held that Petitioner’s 17-year employment with the
Tribe, performed both on and off the reservation,
provided the requisite “contacts” with the Tribe such
that fair play and substantial justice would not be
offended. Petitioner having drafted the Tribe’s policies
herself, which placed jurisdiction and discipline of
tribal employees, including herself, under the purview
of the Tribe, Petitioner had the requisite notice to
support due process. Attorney’s Process, 609 F.3d 927
(8th Cir. 2010) cited by Petitioner does not support
Petitioners cause. In fact, the precedent supports
Respondent’s opposition and the case facts are eerily
similar to the facts of the instant case.
In Attorney’s Process a rival tribal faction attempted
to take over the Sac & Fox tribes tribal casino. The
faction, employed non-members to storm the Casino.
Although the attempted take-over failed the aftermath
resulted in a lawsuit before the Tribal court in which
the non-members were subject to tribal penalties. The
Tribe’s Tribal Court, as in the instant case, was not in
operation at the time of the take-over attempt.
Appellant’s made the same due process arguments
Petitioner makes here as to the tribes’ assertion of
jurisdiction. In upholding the Tribal Court’s finding of
jurisdiction the Eighth Circuit stated as follows:
“Although the issue in the Montana case was about
tribal regulatory authority over nonmember fee land
within the reservation, Montana, 450 U.S. at 547,
Montana’s analytic framework now sets the outer

22
limits of tribal civil jurisdiction-both regulatory and
adjudicatory-over nonmember activities on tribal and
nonmember land. . . . . Because “efforts by a tribe to
regulate nonmembers are presumptively invalid,” the
Tribe bears the burden of showing that its assertion of
jurisdiction falls within one of the Montana exceptions.
Plains Commerce Bank, 128 S. Ct. at 2720 (quotation
marks omitted). Those exceptions are narrow ones and
“cannot be construed in a manner that would ‘swallow
the rule.’ ” Id. (quoting Atkinson Trading Co., 532 U.S.
at 655). The Ninth Circuit court determined that the
tribal courts could exercise jurisdiction over the Tribe’s
claims under both Montana exceptions.
i.

First Montana Exception

The Ninth Circuit held that Montana’s “consensual
relationship exception recognizes that tribes have
jurisdiction to regulate consensual relations “through
taxation, licensing, or other means.” 450 U.S. at 565.
Courts have recognized that tort law, under which the
Tribe’s claims against Knighton arise, constitutes a
form of regulation. See Attorney’s Process, 609 F.3d at
938 (stating that if a tribe retains the power under
Montana to regulate nonmember conduct, it does not
make any difference whether it does so through
precisely tailored regulations or through tort claims).
However, Montana’s consensual relationship exception
requires that “the regulation imposed by the Indian
tribe have a nexus to the consensual relationship
itself.” Atkinson Trading Co. v. Shirley, 532 U.S. 645,
656 (2001). “A nonmember’s consensual relationship in
one area thus does not trigger tribal civil authority in
another.” Id.

23
In examining the facts of the case, the Court
concluded that the Tribe had regulatory authority over
Knighton’s conduct. The conduct that the Tribe sought
to regulate through tort law arose directly out of the
consensual employment relationship between the Tribe
and Knighton. Moreover, given the circumstances,
Knighton should have reasonably anticipated that her
conduct might “trigger” tribal authority. Water Wheel,
642 F.3d at 818 (quoting Plains Commerce Bank, 554
U.S. at 338). Knighton was no stranger to the Tribe’s
governance and laws. She had been an employee of the
Tribe for approximately sixteen years and, as Tribal
Administrator, was responsible for the overall
supervision and management of tribal operations and
carrying out tribal projects consistent with the Tribal
Constitution. The Tribal Constitution, a subsequent
revision adopted approximately two years before
Knighton resigned as Tribal Administrator, specifically
provided that the “jurisdiction of [the Tribe] shall
extend to land now within the confines of the
[Rancheria] and to such other lands as may thereafter
be added thereto.” (Br. in Opp. App.87) The Ninth
Circuit concluded that given the circumstances,
Knighton should reasonably have anticipated that her
conduct on tribal land would fall within the Tribe’s
regulatory jurisdiction.
ii.

Second Montana Exception

Montana’s Second exception provides that tribal
courts have authority over nonmember conduct which
“threatens or has some direct effect on the political
integrity, the economic security, or the health or welfare
of the tribe.” Montana, 450 U.S. at 566. In Attorney’s

24
Process the district court concluded that by attempting
to seize control of the casino and government offices
during an intratribal governance dispute, defendant
API directly affected both the political integrity and the
economic security of the Tribe.
The Court in API stated that “the starting point for
the jurisdictional analysis is to examine the specific
conduct the Tribe's legal claims would seek to regulate.
The Montana exceptions focus on “ ‘the activities of
nonmembers’ or ‘the conduct of non-Indians.’ ”Plains
Commerce Bank, 128 S. Ct. at 2720 (quoting Montana,
450 U.S. at 565-66) (emphasis in original). Each claim
must be analyzed individually in terms of the Montana
principles to determine whether the tribal court has
subject matter jurisdiction over it. See Hicks, 533 U.S.
at 367 n. 8 (limitations on tribal jurisdiction “pertain[ ]
to subject-matter, rather than merely personal,
jurisdiction”); Plains Commerce Bank, 128 S. Ct. at
2724-25 & n. 2; cf. Myers v. Richland County, 429 F.3d
740, 747-48 (8th Cir. 2005) (examining federal court
subject matter jurisdiction claim by claim).
In analyzing the jurisdictional issue we rely on the
record developed in the tribal courts and the
allegations in the Tribe’s complaint. Questions of
subject matter jurisdiction often require resolution of
factual issues before the court may proceed, see, e.g.,
Osborn v. United States, 918 F.2d 724, 728-30 (8th Cir.
1990), and that is particularly true of inquiries into
tribal jurisdiction. It is therefore both necessary and
appropriate for the parties and the tribal court to
ensure that “a full record [is] developed in the Tribal

25
Court.” Nat’l Farmers Union Inc. Cos. v. Crow Tribe,
471 U.S. 845, 856 (1985)
Here, neither Petitioner Knighton or the Tribe
requested discovery in the tribal or district court
forums. Petitioner Knighton has also not contested any
of the material allegations made by the Tribe against
her in its complaint. Thus, all courts took the facts in
the complaint, as true, for determining tribal court
jurisdiction.
The Ninth Circuit found that Petitioner’s conduct in
mismanaging $3 million in tribal funds, manipulating
her pay and retirement, failing to inform the tribe of
audit reports recommending stronger fiscal polices and
recommending the purchase of an Administration office
in which she had a conflict, all supported jurisdiction
under the Second Montana exception.
The Montana exceptions recognize that the Indian
tribes “retain inherent sovereign power,” Montana, 450
U.S. at 565, and our task in applying the exceptions is
to outline the boundaries of that retained power. Those
boundaries are established by federal law, a source of
law external to the tribes. See, e.g., Nat’l Farmers
Union, 471 U.S. at 852. Positive tribal law, in contrast,
is internal to the tribes. It is a manifestation of tribal
power, and as such it does not contribute to the
external limitations which concern us here. Once it is
determined that certain conduct is within the scope of
a tribe’s power as a matter of federal law, our inquiry
is at an end.”

26
iii.

Tribal Adjudicative Authority

Concerning the Court’s Adjudicative authority the
Ninth Circuit Court held that the Tribe’s adjudicative
authority did not exceed its regulatory authority. The
Tribe’s Personnel Manual regulated the conduct that
formed the basis of the Tribe’s claims against
Knighton, and permitted her to be regulated as Tribal
Administrator by the Tribe’s Community Council.
Moreover, the Ninth held that the fact the Tribe now
sought to adjudicate the claims in tribal court did not
undermine its jurisdiction over the claims.
iv.

Use of a Tribal Court Created
After Petitioner Knighton’s
departure from tribal employment
does not Undermine Due Process

The Ninth Circuit also held that due process was
not undermined by the jurisdiction being found over
Petitioner after leaving tribal employment. The Ninth
again looked upon the Eighth Circuit’s Attorney’s
Process case which has facts analogues to this case. In
Attorney’s Process, the tribal court system was
established after the tort claims against API arose. 609
F.3d at 933. API argued that the tribe lacked
jurisdiction over its claims because there were no
written regulations in place at the time which
prohibited the tortious conduct that API was alleged to
have committed. Id. at 938. The court stated that “[i]f
the Tribe retains the power under Montana to regulate
such conduct, we fail to see how it makes any difference
whether it does so through precisely tailored
regulations or through tort claims such as those at
issue [in the case].” Id. The court concluded that

27
because API’s intervention onto tribal land threatened
the “‘political integrity, the economic security, [and] the
health [and] welfare’ of the Tribe,” the tribe had the
authority to regulate and adjudicate such conduct
under Montana, as well as incident to its sovereign
right to exclude nonmembers from tribal land. Id. at
940 (alterations in original) (quoting Montana, 450
U.S. at 566).
The Ninth Circuit held that “the Tribe’s authority to
regulate Petitioner’s conduct derived not only from its
sovereign power to exclude nonmembers from tribal
lands, but also from its inherent sovereign power to
regulate consensual relations with nonmembers
“through taxation, licensing, or other means,” and to
protect the “political integrity, the economic security,
[and] the health [and] welfare” of the Tribe. Montana,
450 U.S. at 565–66.”
As held by the Ninth Circuit, the Court applied an
identical analysis as the Eighth Circuit did in
Attorney’s Process to determine that in finding
jurisdiction the Tribe’s regulatory authority did not
exceed its adjudicative authority. The only distinction
was that the Eight Circuit did not also apply Water
Wheel in its analysis. And it need not do so because the
lower Court in Attorney’s Process did not apply Water
Wheel, as the Eastern District Court did in upholding
the Tribe’s finding of jurisdiction over Petitioner. In
granting Petitioners Writ the Court would need to
overturn the Eighth and Ninth Circuit’s harmonious
application of Montana and unnecessarily uproot
decades of rationally applied federal Indian law
precedent.

28
Finally, all the federal circuits which have
addressed on reservation employment relationships
have held they are the kind of consensual relationships
which can satisfy Montana’s first exception and trigger
tribal regulatory and adjudicatory jurisdiction--when
the nexus test is also satisfied. See, pp.8-9, supra.
Given the absence of a split in the Circuits this case is
not a proper vehicle for addressing the question
presented. McCray v. New York, 461 U.S. 961, 963
(1983) (Stevens, J.). These cases are directly in line
with this Court’s recognition in El Paso Natural Gas
Co. v. Neztsosie, 526 U.S. 473, 482 (1999) that unless
Congressional intent clearly intends to convert state
law claims to federal claims for purposes of federal
court jurisdiction (even for tort claims arising onreservation) “there was little doubt that the tribal court
had jurisdiction over such tort claims.” This point was
reiterated in Hicks, supra at 369.
IV.

This case is a bad vehicle for resolving
Petitioner’s Claimed Circuit Split and
Revisiting Dollar General

This case is a bad vehicle to address the Petition’s
claimed circuit split because, as noted above, there is
no such split. The Petition paints the Ninth Circuit as
rejecting Montana in many situations, but the decision
below made explicitly clear that the Montana
exceptions apply. Therefore, even if the Court held that
the sovereign exclusion source is somehow problematic,
it would not affect the outcome.
Second, this case is a bad vehicle to revisit the
question posed in Dollar General. As noted, the Dollar
General petition contended that the first Montana

29
exception should not be used to justify tribal
jurisdiction for tort claims because it opens the
floodgates to sue any entity that has done business
with the tribe. But even the Dollar General petition
concedes that the second Montana exception provides
a more limited and legitimate basis to justify tort
jurisdiction—i.e., where the conduct is so extreme that
it affects the integrity and economic stability of the
tribe itself. This is that extreme case—it’s hard to
imagine a nonmember more enmeshed in tribal
decisions and finances than Petitioner, Respondent
Tribe’s former Tribal Administrator. Petitioner put
over $3 million of tribal funds at risk, stole from the
tribe, and entered various financial arrangements with
a conflict. Thus, even if the Court took on the question
presented in Dollar General and limited the
applicability of the first Montana exception, it would
similarly not affect the outcome in this case.
Accordingly, this case is a bad vehicle for addressing
Petitioner’s questions.

30
CONCLUSION
For the forgoing reasons Petitioners Writ should be
denied.
Respectfully Submitted,
Jack Duran, Jr.
Counsel for Record
4010 Foothills Blvd.
S-103, #98
Roseville, CA 95747
(916) 779-3316
duranlaw@yahoo.com
Counsel for Respondents

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix 1 Cedarville Rancheria
Judicial Code . . . . . . . . . . . . . . . . App. 1
Appendix 2 Cedarville Rancheria
Personnel Policies and Procedures
Manual . . . . . . . . . . . . . . . . . . . . App. 31
Appendix 3 Constitution and Bylaws of the
Cedarville Rancheria . . . . . . . . . App. 84

App. 1

APPENDIX 1
EXHIBIT “1”
[Filed October 10, 2016]
CEDARVILLE RANCHERIA
JUDICIAL CODE
PREAMBLE
This Code of the Cedarville Rancheria is enacted for
the purpose of protecting and promoting tribal
sovereignty, strengthening tribal self-government,
providing for the judicial needs of the Cedarville
Rancheria, and thereby assuring the protection of
tribal resources and the rights of the members of the
Cedarville Rancheria and all others within its
jurisdiction.
TITLE I: COURTS
PART I: ESTABLISHMENT AND OPERATION
OF THE CEDARVILLE RANCHERIA
TRIBAL COURT
Section 101. Establishment of Tribal Court.
There is hereby established a tribal court of general
jurisdiction as a Court of record. The Cedarville
Rancheria Tribal Court “Tribal Court” or “Court” shall
consist of a Trial Division and an Appellate Division.

App. 2
Section 102. Tribal Designation.
Wherever the formal designation “Tribe,” “Tribal” or
“Rancheria” appears in this Code, such designation
shall refer to the Cedarville Rancheria unless
specifically designated otherwise.
Section 103. Appropriations and Funding.
A. The Community Council of the Rancheria shall
appropriate and authorize the expenditure of
tribal funds for the operation of the Tribal
Court. The amounts to be appropriated shall be
consistent with the needs of the Tribal Court for
proper administration of justice within the
Reservation and for the Rancheria as
determined by the Community Council.
B. To assist the Community Council in making
appropriations for operation of the Court, the
Tribal Administrator, in consultation with the
Chief Judge shall submit proposed budgets and
reports of expenses and expenditures at such
intervals and in such form as may be prescribed
by the Community Council.
C. The Community Council may prescribe a system
of accounting for funds received from any source
by the court and the Tribal Administrator.
Section 104. Conflict with Other Laws.
A. Tribal Laws.
To the extent that this Code may conflict with
tribal laws or ordinances which have been
enacted to comply with statutes or regulations of

App. 3
any agency of the United States, such tribal laws
or ordinances shall govern over the provisions of
this Code if they have specific applicability and
are clearly in conflict with the provisions of this
Code.
B. Federal Laws.
Where a conflict may appear between this Code
and any statute, regulation or agreement of the
United States, the federal law shall govern if it
has specific applicability and if it clearly is in
conflict with the provisions of this Code.
C. State Laws.
To the extent that the laws of any state may be
applicable to the subject matter of this Code,
such laws shall be read to be advisory and not
directly binding and shall not govern the
relations of the parties.
PART II: JURISDICTION
Section 201. Cedarville Rancheria Tribal Court
Jurisdiction
A. Territory.
The jurisdiction of the Tribal Court and the
effective area of this Code shall extend to
disputes arising within or concerning all
territory within the Cedarville Rancheria
boundaries, including, but not limited to, trust
lands, fee patent lands, allotments, assignments,
roads, waters, bridges and existing and future
lands outside the boundaries owned or controlled

App. 4
by the Rancheria for its benefit, the benefit of its
members and the benefit of other Indian
persons.
B. Subject Matter.
The jurisdiction of the Tribal Court shall extend
to:
1. All persons who reside or are found within
the territorial jurisdiction of the Rancheria
and are: Tribal members or eligible for
membership in the Rancheria; members of
other federally recognized Indian tribes; or
Indians who are recognized as such by an
Indian community or by the federal
government for any purpose.
2. All persons described in Subdivision B.1.,
wherever located, while exercising tribal
rights pursuant to federal, state or tribal law.
3. All persons outside the exterior boundaries of
the Cedarville Rancheria Reservation, as
defined herein, within the jurisdiction of the
Rancheria pursuant to federal or tribal law,
including all persons whose activity on or off
reservation threatens the Rancheria,
government or its membership.
4. All other persons whose actions involve or
affect the Rancheria, or its members, through
commercial dealings, contracts, leases or
other arrangements. For purposes of this
Code, person shall mean all natural persons,
corporations, joint ventures, partnerships,

App. 5
trust, trust funds, public or private
organizations or any business entity of
whatever kind.
C. Actions.
The judicial power of the Tribal Court shall
extend to:
1. All matters and actions within the power and
authority of the Cedarville Rancheria
including controversies arising out of the
Constitution and By-Laws of the Cedarville
Rancheria, statutes, ordinances, resolutions
and codes enacted by the Cedarville
Rancheria; and such other matters arising
under enactments of the Cedarville
Rancheria or the customs and traditions of
the Cedarville Rancheria.
2. All civil causes of action arising at common
law including, without limitation, all contract
claims (whether the contract at issue is
written or oral or existing at law), all tort
claims (regardless of the nature), all property
claims (regardless of the nature), all
insurance claims, and all claims based on
commercial dealing with the Band, its
agencies, sub-entities, and corporations
chartered pursuant to its laws, and all
nuisance claims. The court shall have
original jurisdiction whether the common law
cause of action is one which has been defined
as Band common law, or is one which exists
at common law in another jurisdiction and

App. 6
which is brought before the Tribal Court
based upon reference to the law of that other
jurisdiction. For the purposes of this Code,
“common law” shall mean the body of those
principles and rules of action, relating to the
government and security of persons and
property, which derive their authority solely
from the usages and customs, or from the
judgments and decrees of courts recognizing
and affirming such usages and customs, and
as is generally distinguished from statutory
law.
3. Other actions arising under the laws of the
Rancheria as provided in those laws.
4. Limitation of Actions.
No complaint shall be filed in a civil action
unless the events shall have occurred within
a six (6) year period prior to the date of filing
the complaint; provided, that this general
statute of limitations shall not apply to suits
filed to recover public money or public
property intentionally or erroneously
misspent, misappropriated or misused in any
way; and further provided that this general
statute of limitations shall not apply to any
debt owed the Rancheria or any of its
agencies, arms or instrumentalities, whether
organized or not under tribal law.
D. Concurrent Jurisdiction.
The jurisdiction invoked by this Code over any
person, cause of action or subject shall be

App. 7
concurrent with any valid jurisdiction over the same
of the courts of the United States, any state, or any
political subdivision thereof; provided, however, this
code does not recognize, grant, or cede jurisdiction
to any state or other political or governmental
entity which jurisdiction does not otherwise exist in
law.
Inclusion of language, definitions, procedure or
other statutory or administrative provisions of
the state of California or other state or federal
entities in this Code shall not be deemed an
adoption of that law by the Cedarville Rancheria
and shall not be deemed an action deferring to
state or federal jurisdiction within the
Cedarville Rancheria where such state or federal
jurisdiction may be concurrent or does not
otherwise exist.
Section 202. Suits Against the Band.
A. Sovereign Immunity of Band.
The sovereign immunity from suit of the Band and
every elected Executive Council member or tribal
official with respect to any action taken in an
official capacity or in the exercise of the official
powers of any such office, in any court, federal,
state or tribal is hereby affirmed; nothing in this
Code shall constitute a waiver of the Rancheria’s
sovereign immunity. The Tribal Court shall have no
jurisdiction over any suit brought against the
Rancheria in the absence of unequivocally
expressed waiver of that immunity of the
Community Council.

App. 8
B. Tribal Action Not a Waiver of Sovereign
Immunity.
No enforcement action taken pursuant to this Code,
including the filing of an action by the Rancheria or
any agency of the Rancheria in the Tribal Court,
shall constitute a waiver of sovereign immunity
from suit of the Rancheria, or any elected Executive
Council member or tribal official with respect to any
action taken in an official capacity, or in the
exercise of the official powers of any such office,
either as to any counterclaim, regardless of whether
the counterclaim arises out of the same transaction
or occurrence, or in any other respect.
C. Resolution Required for Waiver of Sovereign
Immunity.
The sovereign immunity of the Rancheria and any
elected Executive Council member or tribal official
with respect to any action taken in an official
capacity, or in the exercise of the official powers of
any such office, in any action filed in the Tribal
Court with respect thereto, may only be waived by
a formal resolution of the Community Council of the
Cedarville Rancheria. All waivers shall be
unequivocally expressed in such resolution. No
waiver of the Rancheria’s sovereign immunity from
suit may be implied from any action or document.
Waivers of sovereign immunity shall not be general,
but shall be specific and limited as to the
jurisdiction or forum within which an action may be
heard, duration, grantee, action and property or
funds, if any of the Rancheria or any agency,
subdivision or governmental or commercial entity of

App. 9
the Rancheria subject thereto. No express waiver of
sovereign immunity by resolution of the Community
Council of the Cedarville Rancheria shall be deemed
consent to the levy of any judgment, lien or
attachment upon property of the Rancheria or any
agency, subdivision or governmental or commercial
entity of the Rancheria other than property
specifically pledged or assigned therein.
Section 203. Amendments and Revisions.
This Code may be amended by action of the Executive
Committee or Community Council of the Cedarville
Rancheria. Amendments, additions and deletions to
this Code shall become a part hereof for all purposes
and shall be codified and incorporated herein in a
manner consistent with its numbering and
organization. Other than actions regarding procedural
issues, no enactment, ordinance, resolution, or
otherwise, shall apply to any pending cases before the
Tribal Court at the time action is taken by the
Community Council of the Cedarville Rancheria.
Section 204. Code Revisor.
A. Appointment.
The Tribal Administrator is hereby appointed Code
Reviser for the Cedarville Rancheria. The
Community Council, Executive Committee, tribal
officials or the Chief Judge may submit for review
and approval all codes, ordinances and statutory
law contemplated for application and use by the
Court. The Community Council shall review and
vote on the Ordinance. The Ordinance shall be
effective upon an affirmative vote of the Community

App. 10
Council. All Court Ordinances are subject to
periodic revision and amendment with the consent
of the Executive Committee or Community Council.
Court operation policies and procedures are not
subject to Community Council review and approval.
However, any policies and procedures shall be
provided to the Executive Committee for review and
comment. Court policies and procedures shall also
be made available upon request.
B. Duties of Reviser.
The Reviser shall carry out all duties assigned
under this Section, including, but not limited to:
1. Certify, by signature and date, any and all
amendments, corrections, revisions, updates,
and expansions to this Code, and other Codes,
ordinances and statutory laws enacted by the
Community Council of the Cedarville Rancheria.
Provided however, the Reviser’s actions shall be
ministerial in nature and the Reviser shall not
be empowered to determine whether an action is
necessary or sufficient for the lawful enactment
into law of any amendment, correction, revision,
update or expansion of this Code or other tribal
laws.
2. Keep an official indexed and written record,
which shall be public, of all Certifications made
by the Reviser under this section.
3. Provide copies of all certified revisions of the
Code to any person or agency requesting such
copies. The Reviser may establish a reasonable
cost for such copies.

App. 11
C. Certification to Code Reviser.
Upon adoption of any and all amendments,
corrections, revisions, updates or expansions of the
Code by the Executive Committee or the
Community Council of the Cedarville Rancheria,
the Secretary of the Executive Committee shall
convey a copy of the amendment, correction,
revision, update or expansion of the Code, together
with a copy of the resolution adopting it, to the
Reviser.
D. Effective Date of Revisions.
Upon receipt of all the necessary documents from
the Secretary of the Executive Committee, the
Reviser shall make a written and dated
Certification of Amendment, which shall be
permanently attached to the said documents and
kept in the permanent files of the Reviser. All
revisions of the Code shall be effective on the date
of the written certification required by this Section,
and not before.
E. Distribution.
Distribution of the new Code provisions shall be at
the discretion of the Reviser and may be at a cost
established by him/her.
PART III: JUDGES
Section 301. Trial Division.
The judiciary of the Tribal Court, Trial Division, shall
consist of a Chief Judge and may also include one or
more Associate Judges.

App. 12
The Executive Committee of the Cedarville Rancheria,
or the Chief Judge by order, may appoint additional
persons to serve as deputy/special judges or justices.
Each such appointment of a deputy/special judge or
justice shall be personal and shall not create an office
which survives the death, resignation or removal or the
appointee. The appointment of a deputy/special judge
or justice may be for the performance of such specific
duties or cases as may be assigned him/her by the
Chief Judge or by the Executive Committee of the
Cedarville Rancheria, and she/he shall serve until the
cases or duties specifically assigned have been
completed, or pursuant to the terms of any contract.
A deputy judge shall perform the duties and functions
of a judge of the Tribal Court as may be designated by
his/her appointment or contract subject to any
restrictions or limitations imposed by law, by
resolution of the Community Council of the Cedarville
Rancheria, or the Chief Judge, as the case may be. The
findings, rulings, opinions and orders of a deputy judge
or justice shall be signed “Judge” or “Justice,” as
appropriate to the case and shall have the same force
and effect as if made by a regular judge or justice of the
court.
Section 302. Appellate Division.
In any appeal from a final decision of a trial judge,
whether Chief, Associate, or Deputy/Special, an
appeals tribunal of three justices shall be appointed by
the Community Council of the Cedarville Rancheria.
Such justices of an appeal tribunal shall serve until
cases specially assigned them have been completed. A
justice of an appeals tribunal may only be removed

App. 13
prior to completion of assigned matters by the
Community Council of the Cedarville Rancheria
pursuant to the provisions of this Code for the removal
of a judge of the Tribal Court.
Section 303. Qualifications.
A. Any person Twenty-Five (25) years or older shall
be eligible to serve as a Judge or Justice of the
Tribal Court, except the following:
1. The Tribal Administrator, Assistant Clerks
and members of the Executive Council.
2. Those who have been convicted by a court of
the United States or of any state of the
United States for a felony, as a felony is
defined by the laws of that jurisdiction or a
gross misdemeanor within one year
immediately preceding the proposed
appointment as judge or justice.
B. All judges or justices of the Tribal Court,
whether Chief, Associate or Deputy/Special,
shall be lawyers experienced in the practice of
tribal and federal Indian law and licensed to
practice in the highest court of any state.
Section 304. Evaluation and Selection.
Candidates for the positions of the Chief Judge and
Justices shall be screened by the Executive Committee
and the Tribal Administrator. The Screening
Committee shall submit its recommendations for
appointments to the Community Council of the
Cedarville Rancheria who shall make a final decision.

App. 14
Associate Judges shall be selected in the same manner
except that the Chief Judge shall participate on the
screening committee.
Section 305. Appointment, Terms, Compensation.
The Chief Judge, Associate Judges and Justices shall
be appointed by the Community Council of the
Cedarville Rancheria to two (2) year terms under
written contracts specifying the compensation and
other terms and conditions of the employment of the
judge. Ninety (90) days prior to the expiration of the
term of office of each Judge or Justice, the Community
Council of the Cedarville Rancheria shall consider
whether to renew the contract of employment of each
Judge/Justice for an additional term. If the Community
Council of the Cedarville Rancheria determines to not
renew the contract, it shall so notify the Judge/Justice,
in writing, at least thirty (30) days prior to the
expiration of the Judge/Justice’s current term. Failure
of the Community Council to take affirmative action to
non-renew the Judge/Justice’s contract as provided
herein shall result in an automatic appointment for an
additional three (3) year term and renewal of the
existing contract of employment. The compensation of
any Judge/Justice shall not be reduced during his/her
term of office.
Section 306. Removal of Judges/Justice.
The Community Council of the Cedarville Rancheria
may remove any Judge or Justice of the Tribal Court
during the term of his/her office only for cause based
upon any of the following grounds:

App. 15
1. Serious misconduct or incompetence in the
performance of her/his duties as
Judge/Justice.
2. Personal conduct involving moral turpitude,
whether or not related to judicial duties, or
conduct which brings the prestige of her/his
office or that of the Tribe into public
disrepute.
3. Habitual neglect of her/his duties as Judge or
Justice.
4. Persistent illness or other disability which
renders her/him incapable or otherwise
unable to regularly perform her/his duties as
Judge or Justice.
Such removal shall be by an affirmative vote of twothirds of the Community Council of the Cedarville
Rancheria at a valid meeting called for the purpose of
considering such removal, provided that the subject
Judge or Justice shall be given a full hearing and fair
opportunity to present testimony and evidence in
her/his behalf, and to cross-examine and rebut all
witness and evidence considered by the Community
Council in support of removal. The subject Judge or
justice shall be given not less than twenty (20) days
written notice in advance of the hearing, which notice
shall include an itemization of the charges or grounds
for removal which are to be considered. Such notice
shall be served by registered or certified mail, or
delivered personally to her/him by a party duly
authorized by the Community Council of the Cedarville
Rancheria.

App. 16
Section 307. Conflicts of Interest.
No Judge or Appellate Justice shall officiate in any
proceedings in which her/his impartiality might
reasonably be questioned, in which she/he has any
personal bias or prejudice concerning any party, she/he
has any personal knowledge of any disputed
evidentiary facts, she/he has any personal interest, or
in which any party, witness or counsel is related to
her/him by blood, adoption or marriage, within the
third degree, or in which any party, witness or counsel
stands in relationship to the Judge or Appellate Justice
as a current ward, attorney, client, employer, employee,
landlord, tenant, business associate, creditor or debtor.
Prior relationship of the sort listed above may
constitute a conflict of interest, and parties may raise
the issue. The Judge or Appellate Justice may or may
not grant the motion for a conflict for prior
relationships. For this purpose; however, the service of
Judge or Appellate Justice for the Rancheria shall not
disqualify the Judge or Appellate Justice by virtue of
said employment by the Rancheria.
Any party may bring a motion for disqualification of a
judge or appellate justice on the grounds set forth
herein or on the grounds of personal bias or prejudice
towards any party to the proceeding. A motion for
disqualification shall be supported by an affidavit of
the party bringing the motion setting forth the grounds
therefore. If the judge grants the motion she/he shall
appoint another judge to preside over the case. If the
judge denies the motion, she/he shall do so by written
order setting forth the reasons for denial.

App. 17
A conflict of interest may be waived if all parties have
entered a waiver, in writing, to the conflict of interest,
and agreed to proceed before the Judge or Appellate
Justice, irrespective of the conflict of interest.
Section 308. Oath of Office.
Prior to assuming any judicial office of the Tribal
Court, the appointee shall take the following oath:
I swear (or affirm” that I will support and defend
the Constitution and By-Laws of the Cedarville
Rancheria, and the laws of the Cedarville
Rancheria, that I will faithfully and diligently
perform the duties of (Chief Judge, Associate
Judge, Deputy Judge, Appellate Judge, as
applicable) of the Tribal Court, to the utmost of
my ability, with impartiality and without
improper favor, to the end that justice may be
fully served.
The Chief Judge and Associate Judge shall take the
prescribed oath before the Chairperson of the
Cedarville Rancheria. Deputy Judges and Justices may
take the prescribed oath by affidavit, before the Chief
Judge, or before any member of the Executive
Committee of the Cedarville Rancheria.
PART IV: COURT ADMINISTRATOR
Section 401. Appointment.
The Court Administrator shall be Cedarville
Rancheria’s Tribal Administrator. The Court
Administrator may appoint such clerks and assistants
that may be needed for operation of the court. Any

App. 18
person serving as the clerk or as an assistant may be
discharged from that position.
Wherever the formal designation “Clerk” or “Clerk of
Court” appears in this Code, such designation shall
also refer to the Court Administrator. The terms Clerk
of Court and Court Administrator shall be
interchangeable.
Section 402. Duties.
The Court Administrator shall be responsible for the
administration of the Tribal Court, and for such other
administrative and ministerial duties as may be
prescribed by this Code or assigned to her/him by the
Community Council of the Cedarville Rancheria or the
Chief Judge. The duties of the Court Administrator
shall include but shall not be limited to the following:
1. Maintaining records of all court proceedings
to include identification of the title and
nature of all cases; the name of the judge; the
names and addresses of the parties,
attorneys, lay advocates and witnesses; the
substance of the complaints; the dates of
hearings and trials; all hearings and trials;
all court rulings and decisions, findings,
orders and judgments; the preservation of
testimony for perpetual memory by electronic
recording, or otherwise; and any other facts
or circumstances decided by the judges or
deemed of importance by the Court
Administrator. Unless specifically excepted
by this Code, the records of the Court shall
be sealed.

App. 19
2. Maintaining all pleadings, documents and
other materials filed with the Court.
3. Maintaining all evidentiary materials,
transcripts and records of testimony filed
with the court.
4. Collecting and accounting for fines, fees and
other monies and properties taken into
custody by the Tribal Court, and
transmitting them to the accounting
department by the Tribe. Funds received
from the office of the Court Administrator by
the accounting department shall be
designated as Tribal Court funds and shall
be used only for expenses incurred by the
Tribal Court, or for training of Cedarville
Rancheria police officers, at the discretion of
the Court Administrator with the approval of
the Chief Judge.
5. Preparation of and service of notices,
summons, subpoenas, warrants, rulings,
findings, opinions and orders as prescribed
by this Code and as may be designated by the
Judges of the Court.
6. Assisting persons in the drafting and
execution of complaints, petitions, answers,
motions and other pleadings and documents
for Tribal Court proceedings; provided,
however, the Clerk and her/his assistants
shall not give advice on questions of law, nor
shall they appear or act on behalf of any
person in any Tribal Court proceedings.

App. 20
7. Administering oaths
execution of documents.

and

witnessing

8. Maintaining a supply of blank forms to the
prescribed by the Tribal Court for use by all
persons having business before the Tribal
Court.
9. Other duties necessary to ensure the
effective operations of the Tribal Court.
PART V: COUNSEL
Section 501. Legal Representation.
Any person who is a party in any trial or other
proceedings before the court may represent himself or
herself, or be represented by lay counsel, or a
professional attorney, who is licensed to practice law
before the Tribal Court.
Section 502. Licensing of Professional Attorneys.
Professional attorneys may appear on behalf of any
party in any proceedings before the Tribal Court,
provided they are licensed to practice. A license to
practice may be issued by the Tribal court upon
compliance with the following:
1. Filing with the Court Administrator an
affidavit attesting that the applicant is
licensed to practice law before the highest
court of any state. A photocopy of said license
shall be submitted with the affidavit.
2. Filing an affidavit that the applicant has
studied and is familiar with the Constitution

App. 21
and By-Laws of the Cedarville Rancheria, the
Cedarville Rancheria, this Code, all other
ordinances or codes of the Tribe, Title 25 of
the United States Code and Title 25 of the
Code of Federal Regulations.
3. Paying an annual license fee of one hundred
dollars ($100). The annual license fee may be
reduced to twenty-five dollars ($25) in the
discretion of the Chief Judge for any attorney
who is employed by a not-for-profit legal
services program or otherwise seeks to
represent clients on a pro-bono or reduced fee
basis. The annual license fee shall be waived
for any attorney employed by the Cedarville
Rancheria.
4. Taking the following oath before the Court
Administrator or the Chief Judge, by
affidavit or in person:
“I do solemnly swear (or affirm) that I will
support the Constitution and By-Laws of the
Cedarville Rancheria;
I will maintain the respect due to the Tribal
Court and its judicial officers;
I will not counsel or maintain any suit or
proceeding which shall appear to me to be
unjust, nor any defense except such as I
believe to be honestly valid or debatable
under the law; I will employ for the purpose
of maintaining the causes confided to me
such means only as are consistent with truth
and honor, and I will never seek to mislead

App. 22
any judge or jury by any artifice, or by false
statement or misrepresentation of fact or
law;
I will employ in the conduct of my duties the
highest degree of ethics and moral standards
with which my profession is charged, and I
will be guided at all times by the quest for
truth in justice;
In the conduct of my duties as an attorney, I
will not impugn the morals, character,
honesty, good faith, or competence of any
person, nor advance any fact prejudicial to
the honor or reputation of any person, unless
required by the justice of the cause with
which I am charged.”
Section 503. Licensing of Advocates.
A member of the Tribe or a member of another Indian
Tribe may be licensed to practice in the Tribal Court.
To qualify for licensure as an advocate, the applicant
must be at least twenty-one (21) years old; of good
moral character; have never been convicted of a felony
and not had her/his civil rights restored; have never
been convicted of a crime against the Tribe or any other
Indian tribe; and must be familiar with the
Constitution and By-Laws of the Cedarville Rancheria;
and the codes, statutes, ordinances of the Cedarville
Rancheria.
No fee shall be assessed for licensing as an advocate.
An applicant seeking licensure as an advocate shall
subscribe to the oath set forth in Section 2 for

App. 23
professional attorneys, substituting
“advocate” for “attorney” therein.

the

term

Section 504. Revocation or Suspension of License.
A license issued pursuant to this Part V may be
revoked or suspended by the Tribal Court. Such action
may be taken on its own motion or upon sworn
complaint by any member of the Cedarville Rancheria
or on motion of the Court. Revocation or suspension
shall be ordered only after written notice to the licensee
of the motion or complaint and after a hearing before
all judges of the Court unless a conflict of interest
prohibits such participation. Following a hearing, the
court may revoke or suspend the license upon a finding
that the licensee has been disbarred or suspended from
the practice of law by any court of the United States,
any state, or a tribal court or has filed a false affidavit
to obtain her/his license, or has violated her/his oath, or
has engaged in misconduct or unethical behavior in the
performance of her/his duties as an attorney or lay
advocate or has been found in contempt of court by the
Tribal Court.
Section 505. Implied Consent to Jurisdiction of the
Court.
Any person who submits an application for licensure as
a professional attorney under this Code gives implied
consent to the assertion of jurisdiction of the Court over
her/him for all purposes relating to her/his practice of
law before the Court, whether or not, the Court would
otherwise have such jurisdiction.

App. 24
PART VI: CONTEMPT OF COURT
Section 601. Definition.
Willful behavior by any person which disrupts,
obstructs, or otherwise interferes with the conduct of
any proceeding by the Court, which obstructs or
interferes with the administration of justice, or which
constitutes disobedience or resistance to or interference
with any lawful summons, subpoena, process, order,
rule, decree or command of the Tribal Court shall
constitute contempt. The willful failure of a party to
comply with the terms of a judgment directed against
her/him, with which she/he is able to comply, shall be
contempt of court which shall be punished in the
manner prescribed by this Code.
Section 602. Contempt in Presence of Court.
When contempt of court is committed in the presence
of a Tribal Judge, it may be punished summarily by
that judge. In such case, an order shall then be made
reciting the facts constituting the contempt, adjudging
the person guilty of contempt, and prescribing the
punishment therefore in accordance with Section 604
of this Part. Failure to appear in response to any
citation of an enforcement officer of the Tribe on any
matter, or to a subpoena, summons, order or other
notice, duly issued by the Court, shall constitute
contempt in the presence of the court and may be
summarily punished by the court without further
notice.

App. 25
Section 603. Contempt Outside Presence of Court.
When it appears to the Court that a contempt may
have been committed out of the presence of the Court,
it may issue a summons to the person so charged
directing her/him to appear at a time and place
designated for a hearing and show cause why she/he
should not be held in contempt. If such person served
with the summons fails to appear at the time and place
so designated, the Tribal Court shall conduct a hearing,
and if it finds her/him guilty of contempt, an order
shall then be made reciting the facts constituting the
contempt, adjudging the person guilty of contempt, and
prescribing the punishment therefore in accord with
Section 604 of this Part VI.
Section 604. Punishment for Contempt.
Any person found in contempt of court shall be subject
to a fine not to exceed five hundred dollars ($500)
and/or imprisonment not to exceed ninety (90) days, as
may be determined by a judge of the court. The person
charged or found in contempt shall be notified of the
finding of the Court and the prescribed punishment by
any means permitted in this Code for service of process
and the penalty may be enforced by the means
provided in this section or for the execution and
enforcement of judgments as provided in Title 2 of this
Code.
If the Court determines to impose a penalty of
imprisonment, it is authorized to issue a warrant
commanding a law enforcement officer of the Cedarville
Rancheria to arrest the person and detain her/him
pending a hearing before the Tribal Court. The warrant

App. 26
issued shall provide for release on case bail in an
amount set by the Court not to exceed the amount of
fines or restitution for any underlying offense(s)
together with the contempt penalty which has been or
could be imposed.
PART VII: GENERAL COURT PROCEDURES
Section 701. Assignment of Cases.
The Chief Judge shall be responsible for assignment of
cases and other matters for determination or
disposition to the respective judges or justices of the
Court.
Section 702. Court Rules and Procedures.
The Chief Judge of the Court may promulgate rules of
procedures for the conduct of its proceedings which are
not inconsistent with this Code or other governing and
applicable law. Tribal Court proceedings shall be
conducted in accordance with the Federal Rules of Civil
Procedure and Rules of Evidence.
The Chief Judge shall rule on all matters of law and
motion, discovery, and issue minute orders and all
other Court documents, unless delegated to a Special
Judge or Special Master.
Section 703. Sessions of Court.
The Tribal court may hold such sessions of court as
deemed necessary, commencing at such time as
designated by the Court Administrator in consultation
with presiding judges for a particular case. Special
sessions of the Tribal Court may be called by the Chief
Judge at any time, or, in her/his presence by an

App. 27
Associate/Special Judge. Judges may conduct trials or
other proceedings for individual cases assigned to them
at such times as they may designate, and such trials or
proceedings may be recessed and reconvened from time
to time until they are completed.
Section 704. Filing Timelines.
All personal injury or property damage cases shall be
filed within one-hundred and eighty (180) days of the
alleged injury, occurrence, action or nonfeasance,
unless the cause of action is subject to an alternate
timeline enumerated in a document executed by the
Tribe’s Community Council or its authorized
representative. Contract cases shall be filed according
to appropriate tribal, federal or state timelines. The
Court may extend a timeline in the interest of justice.
Section 705. Time for Hearing.
All cases shall be heard within one-hundred and eighty
(180) days of the filing date, unless the Court finds,
after proper inquiry, and presentation of evidence,
justice demands a reasonable extension of time.
Section 706. Jury Trials.
All cases before the Tribal Court shall be tried to a
judge sitting without a jury, unless a jury trial is
otherwise required by applicable law.
Section 707. Awards.
At the conclusion of hearing, the Court shall issue a
written opinion within ninety (90) days.

App. 28
If an award is favorable to the Claimant against the
Rancheria against the Rancheria, the Rancheria’s
insurer shall pay the award, if applicable, within
ninety (90) days of the publication of the Court’s
opinion.
Section 708. Limitation on Awards.
A. All awards are limited to the Rancheria or tribal
entities policy limits under their policy of
insurance.
B. Tribal funds or property shall not be subject to
any award, encumbrance or liquidation.
C. The Court shall not issue an award for attorneys
or expert witness fees or exemplary or punitive
damages.
D. The Court shall not issue an award based on any
theory of strict products liability or strict
liability.
E. The Court shall not issue an award as against
the Rancheria or a tribal defendant caused by
the negligence of a non-tribal third party.
F. The Court shall not issue an award based on
alleged conduct outside the scope of official
conduct, illegal conduct or conduct criminal in
nature.
G. No award shall include damages which are the
result of the acts or inactions of a non-tribal
third party.

App. 29
Section 709. Confidentiality.
All Tribal Court matters shall remain confidential. All
pleadings, documents, depositions, etc., shall remain
confidential and shall not be used outside the
jurisdiction of the Rancheria unless a request for a
release of said court documents is presented by a
majority of the Rancheria’s Community Council. Upon
presentation of a request for release, any release shall
be made by Court order and subject to any limitations
deemed necessary by the Court.
Prior to the release of Court awarded funds, the Court
shall approve a “release” executed by the prevailing
party, restating the requirement of confidentiality,
unless the Court has previously authorized the release
of the opinion, award, etc.
Section 710. Court Immunity from Suit.
This Court shall be immune from suit, unless the
Rancheria’s sovereign immunity is clearly, expressly
and properly waived by the Community Council.
Nothing in the Code shall be construed as consent of
the Court to be sued or authorizes the Court to waive
the Rancheria’s immunity.
Section 711. Means to Carry Jurisdiction Into Effect.
Where jurisdiction over any matter is vested in the
Tribal court, all the means necessary to carry such
jurisdiction into effect are also included; and in the
exercise of its jurisdiction, if the means are not
specified in this Code or the rules promulgated by the
Court, the Court may adopt any suitable process or
mode of processing which appears to the Court to be

App. 30
fair and just and most consistent with the spirit of
tribal law.
Section 712. Law Applicable in Civil Actions.
A. In all civil actions, the Court shall first apply
such written laws of the Rancheria which have
been enacted by the Cedarville Rancheria
Community Council.
B. Where there are no superseding written laws the
Court shall apply tribal customary and
traditional law if such exists. Tribal customary
or traditional law shall mean those traditional
values and practices of the Cedarville Rancheria
handed down, through the generations, either
orally or through writing. In the event, any
doubt arises as to the customs and usages of the
Tribe, the Court may request the advice and
assistance of elders who are knowledgeable
about such matters.
C. Where an issue arises in an action which is not
addressed by written laws or custom and
traditional law, the court may apply the laws of
any tribe, the federal government, or any state.
Application of such law shall not be deemed an
adoption of such law or deference to the
jurisdiction from which that law originates.
Section 713. Bureau of Indian Affairs Relations.
No employee of the Bureau of Indian Affairs, or the
Department of Interior shall obstruct, interfere with, or
control the function of the court, nor shall she/he seek
to influence such functions in any manner.

App. 31

APPENDIX 2
EXHIBIT “2”
[Filed October 12, 2016]
ARTICLE XIII
PERSONNEL POLICIES AND PROCEDURES
MANUAL
Section 1

GUIDING PRINCIPLES

The purpose of this manual is to establish a system of
personnel administration that meets the social,
economic, and program needs of the Rancheria This
system provides means to recruit, select, develop, and
maintain an effective and responsible work force, and
includes policies and procedures for employee hiring
and advancement, position classification, salary
administration, fringe benefits, discharge, resolution of
grievances and other related activities. All
appointments and promotions under the provisions of
this manual shall be based on merit and fitness. The
Tribal Council of the Cedarville Rancheria (CR) shall
have the authority to establish Personnel Policies. All
references to the Council made herein, means the CR
Community Council. The guiding principles for the
tribal personnel system shall be:
a. Recruiting, selecting and advancing employees on
the basis of their relative abilities, knowledge, and
skills, including open consideration of qualified Indian
applicants for initial appointments;

App. 32
b. To facilitate employment of disadvantaged persons,
competition for “aide” or similar classes may be limited
to such individuals;
c. To provide equitable and adequate compensation;
d. To train employees within budgetary limitations, as
needed, to assure high-quality performance;
e. To retain employees on the basis of the adequacy of
their performance, correcting inadequate performance
and separating employees whose inadequate
performance cannot be corrected;
f. The assurance of fair treatment of applicants and
employees in all aspects of personnel administration
without regard to political affiliation, family ties, age,
race, color, national origin, sex, marital status,
religious creed, or other non-merit considerations and
with proper regard for their privacy and other
constitutional rights as citizens, except that Indian
preference, Tribal members first if qualified, shall be
provided.
g. To assure that employees are protected against
coercion for partisan political purposes and to prohibit
their use of official authority for the purpose of
interfering with or affecting the result of an election or
nomination for office;
h. To assure that employees of the Rancheria, whether
in regular Tribal employment, programs funded by
special grants or other outside funding, be subject to
these policies;

App. 33
i. To require all program directors and officials with
the Rancheria service to follow these policies and
procedures in all matters pertaining to personnel
management and administration, including selection,
promotion, separation, disciplinary action, and all other
matters covered by these policies. All questions
regarding correct procedures to be followed, requests
for eligible lists, and other assistance as needed will be
referred to the personnel officer or other responsible
Tribal officials.
Section 2
A.

CONDITIONS GOVERNING
EMPLOYMENT

DISCRIMINATION

The CR (1) will not discriminate because of political or
religious opinions or affiliations, or because of race,
national origin or other non-merit factors. except for
Indian preference requirements, Tribal members first
if qualified, or as required by specific program
guidelines. Discrimination on the basis of age, sex, or
physical disability will be prohibited except where
specific age, sex, or physical requirements constitute a
bona fide occupational qualification necessary for
proper and efficient administration; (2) will take
affirmative action to ensure that these provisions are
carried out.
These requirements shall apply, but not be limited, to
the following: recruitment, examination, appointment,
promotion, retention, demotion, forms of compensation
and selection for training, including apprenticeship, or
any other aspects of personnel administration.
*Preferential treatment in employment practice may be

App. 34
·given to Indians as provided for in the Indian SelfDetermination and Education Assistance Act, P.L. 93638, January 4, 1975, Section 7; the Civil Rights Act.
amended by P.L. 92-261; Section 703 and other
sections.
B.

POLITICAL ACTIVITY REGARDING
ELECTIONS

Employees shall not:
1) Use their official authority or influence for the
purpose of interfering with an election or a nomination,
or affecting the result thereof.
2) Directly or indirectly coerce, command, or advise
one another to pay, lend, or contribute salary,
compensation, or “anything else of value” for political
purposes.
3) Engage in any political activity during the
scheduled working hours.
4) Neglect their assigned duties or responsibilities for
political activity.
5) Discriminate in favor of or against, a Tribal officer,
employee, or applicant because of political affiliation.
6) Engage in any permitted political activity directed
at other tribal employees while they are on duty.
7) Promise or use influence to secure tribal
employment or other benefits and/or services as a
regard for political activity.

App. 35
C.

GIFT AND GRATUITIES

No employee of the CR may accept consideration(s)
from persons receiving benefits from the CR.
D.

REQUIREMENTS OF EMPLOYEES

A supervisor or other office employee is responsible for
much of the daily work of the Tribal Office and is
expected to carry his/her duties with a minimum
amount of supervision and direction. The employee
often represents the Tribe and the Tribal Office and
should, therefore, display good manners with others,
accuracy, reliability, efficiency, and the ability to do
things independently. Here is a list of some of the more
important things that employees will do:
1. Employees will know all of their responsibilities and
those of their immediate supervisor.
2. Employees will competently & confidentially carry
out Tribal business and necessary office work in the
absence of a supervisor. Employees will begin, handle,
and follow through on projects, without having to be
reminded. For example, a good employee will not have
to be reminded to keep the filing system organized and
up to date.
3. Employees will help their supervisor organize
his/her time, coordinate his/her appointments and
schedules, and relay messages promptly and correctly.
4. Employees of the Tribal Office will be courteous and
helpful to visitors, government agencies, and business
associates.

App. 36
5. Employees will try to complete their routine and
assigned tasks within a regular working day. Or in the
case of part-time employees, in an expeditious manner.
6. Employees will be able to handle routine matters
and projects on a day-to-day basis without constant
supervision.
E.

CONFLICT OF INTEREST AND
NEPOTISM

1. No member of the Rancheria shall participate in
voting on an applicant who is a member of their
immediate family. For the purpose of this Manual, a
member of the immediate family shall be limited to the
following: Husband, Wife, Son, Daughter, Father,
Mother, Brother, Sister.
2. No employee may be assigned to a unit supervised
by a member of their immediate family. Discretionary
exceptions may be permitted upon approval of the
Council when other qualified applicants are not
available.
3. Members of the Council or Community Committees
shall abstain from personnel actions regarding
members of their immediate families.
F.

PUBLIC STATEMENTS
1. No employee of the Rancheria may presume
to speak for, or on behalf of, the CR without the
expressed prior approval of the CR Community
Council.
2. Program staff members who make public
factual presentations about their program to

App. 37
others not entitled to know the information, will
be subject to disciplinary action.
G.

DRESS STANDARDS
Employees are expected to dress in a manner
commensurate with their positions and in
respect to specific occasions determined by the
Administrator.

H.

SECONDARY EMPLOYMENT
1. Outside employment may be accepted by a
Rancheria employee, provided it does not
interfere with on-the-job performance or
necessary attendance at any job-related meeting
after standard working hours.
2. Notification of outside employment must be
provided in writing to the immediate supervisor.
3. Accepting wages or salary while on
Rancheria work time is reason for disciplinary
action.
ARTICLE XIV
ADMINISTRATION OF THE PERSONNEL
SYSTEM

Section 1

TRIBAL ADMINISTRATION

The council shall be responsible for the implementation
and overall administration of CR programs.
Section 2

TRIBAL ADMINISTRATOR

The council shall select a Tribal Administrator to
administer the personnel system. The Tribal

App. 38
Administrator shall be responsible for the
implementation and overall administration of the
personnel system approved by the Council.
The Tribal Administrator will perform the following
assigned functions:
a. Screen all applications for positions with the
CR.
b. Screen all applicants for an interview by the
Community Council.
c. In cases of three or less applicants for a
position, all applicants shall be presented to the
Council, provided the Tribal Administrator
determines that the minimum qualifications are
met.
Section 3

REVISIONS AND/OR AMENDMENTS
TO THE PERSONNEL POLICIES

Any person affiliated with the CR may make
recommendations for revisions and changes to the
Personnel Policies.
Suggested revisions will be channeled as below:
a. Submitted in writing
Administrator for review.

to

the

Tribal

b. The Tribal administrator will present any
recommendations for final approval by majority
vote of the Council at any regularly called
meeting, provided written notice of amendment
is furnished to Council Members at least fifteen

App. 39
(15) days before the date of the meeting at which
the amendment is to be considered.
Section 4

RANCHERIA COUNCIL AS
APPOINTING AUTHORITY

The Council shall make appointments for all Tribal
positions.
Section 5

AFFIRMATIVE ACTION PLAN

The Tribal Administrator shall maintain an affirmative
action plan, which insures equal opportunity in
recruitment and selection, job structure, promotion
policies, training, upward mobility, layoff, disciplinary
action, and all other related personnel procedures and
practices; in accordance with the Indian Self
Determination and Education Assistance Act, P.L. 93638, January 4, 1975, Section 7, and the Civil Rights
Act; amended by P.L.-92-261, Section 703.
Section 6
A.

APPOINTMENT AND PROMOTION

GENERAL PROVISIONS

1. Before any persons convicted of a felony or gross
misdemeanor, the record of which has not been sealed,
can be considered for employment, the Tribal
Administrator shall conduct an investigation including
reviewing the applicants explanation, and reviewing
law enforcement and court records. The Tribal
Administrator shall report to the persons making the
hiring decisions, who may then decide whether the
conviction disqualifies the individual from employment.
2. The Tribal Administrator may remove an employee
or deny consideration of an applicant, if it is found that

App. 40
the person misrepresented himself deliberately in the
selection process, lied about significant information,
used political or other pressures.
3. All vacant positions will be advertised to the general
public. Consideration shall be given to enrolled Tribal
members who meet all qualifications for the particular
vacancy. Selection will be in accordance with the
Indian Preference regulations, Tribal Members first if
qualified.
B.

MINIMUM QUALIFICATIONS

The qualifications for positions should be approved by
the Council and be a part of the job description for each
position.
Reasonable consideration shall be given to providing
employment opportunities to persons who are willing
to learn on the job. An appropriate education may be
necessary in certain professional positions, ie; teacher,
attorneys.
No minimum educational requirements will be
prescribed without provisions for substitution of
equivalent training and/or experience, except when the
duties of a scientific, technical, or professional position
cannot be performed by a person who does not have a
prescribed minimum education. If the education or
experience for a position is not required by law, or is
not included as a requirement in a program funding
grant, such qualifications will be waived with the
approval of the Council. Such waiver shall be made in
writing and a copy kept in the employee’s personnel
file.

App. 41
Minimum qualification requirements will be
knowledge, abilities, licenses, and skills required to
preform the job.
C.

APPLICATION AND EVALUATIONS

All vacancy announcements shall be posted for ten (10)
working days. After ten (10) working days, if there are
no qualified applicants, the announcement shall be
extended an additional five (5) days, or open until
filled, at the request of the Tribal Administrator.
The announcement will describe the job, list the
necessary qualifications, education, experience, and
will specify when, where, and how to apply. Applicants
for employment with the CR will be submitted on a
standard form provided by the CR and will be accepted
at the location described on the announcement.
Applications will be accepted if postmarked on the
closing date and mailed before midnight.
Announcements shall be posted on the bulletin boards
of the CR. Other sources may be used, such as local
newspapers, trade publications, and agencies as
needed.
The Tribal Administrator will screen all applicants to
determine if they meet the minimum requirements as
specified in the vacancy.
In consultation with the Council, the Tribal
Administrator will determine the type of evaluation to
use in evaluating the qualifications of applicants.
Evaluations may be interviews, evaluation of training
and experience, written tests, background or reference
checks, or any combination of these or any other
selection devices which validly evaluates the

App. 42
applicant’s on-the-job related factors in their proper
importance to the job.
Evaluations for appointments and promotions shall not
include any inquiry into religious or political beliefs.
Inquiries may be made into the Tribal origin of any
applicants to validate that they are an enrolled
member or Native American.
Insofar as it is practical and necessary, the applicant’s
work history, education, and other information on the
job application shall be checked. Letters of personal
reference will also be provided by the applicant.
Qualified candidates shall be placed on a certification
list for the job vacancy. Applicants will be listed
alphabetically and the CR may select any candidate
listed, as long as Indian Preference is not violated.
D.

TYPES OF APPOINTMENT

Temporary appointments up to three (3) may be made
by the CR without full competitive recruitment and
evaluation procedures for positions that are seasonal or
temporary in nature. Applicants for such positions
must meet the minimum qualifications for that
position.
Temporary appointments may be made up to four (4)
months by the CR when a permanent employee is
absent temporarily but has a right to return to service,
or if a vacancy exists in a critical position.
Section 7. COMPENSATIONS
a. Pay period shall be the 15th and 31st or the last
working day of the month. The employee shall be paid

App. 43
at an hourly rate for each hour that he/she works,
except salaried employees.
b. Employees will not be required to work more than
8 (eight) hours per day. No overtime is allowed;
weekend hours shall have prior approval from the
Tribal Administrator/Chairperson.
c. Business hours shall be 8:30 a.m. to 5:00 p.m.,
Monday through Thursday. Youth Group and tutoring
hours shall be determined, or as required to meet
student’s needs through prior arrangement. Employee
hours may be adjusted to meet the needs of the Tribe.
d. Full time employees receive an unpaid half hour
lunch and two fifteen minute, alternate breaks.
Variations from the normal work week shall be
scheduled in advance and approved by the employee’s
immediate supervisor and Tribal Administrator. Any
absence forms must be submitted to the Tribal
Administrator
e. Vacation and sick leave provisions shall be available
on a prorated basis. The immediate supervisor shall be
notified as early as possible when an employee is
absent due to illness.
f. If an employee is late:
1) Every effort must be made to phone a
supervisor within the first hour of a regular
work day.
2) Any employee who does not phone and does
not show up for work without prior

App. 44
arrangements, are subject to termination after
a 3rd offense with no rights of appeal.
A. COST-OF-LIVING SALARY INCREASES
If applicable, wage step increases will be after January
1st if the employee has worked at least 6 months,
depending on the funding sources and Chairperson and
Tribal Administrators approval. Cost of living increases
as warranted and periodic raises in accordance with
the prevailing practice in similar governing agencies.
Salary increase shall be approval by the Tribal
Administrator and/or Chairperson/Council. The Council
may give cost-of-living salary increases as warranted
by increased cost-of-living. Such increases will depend
on the availability of funds.
B.

SALARY ADVANCES

There shall not be any emergency salary advances
authorized unless prior approval is given by the
Administrator and approved by the CR check signers.
C.

BENEFITS

State compensation insurance, social security,
medicare, health insurance, unemployment insurance
and SIRA shall be the only benefits provided for all
employees through Tribal funding. Overtime will not be
paid for inservice, workshops, or any meetings related
to work.

App. 45
ARTICLE XV
PERSONNEL POLICY
Confidentiality is vital in all staff positions.
Anyone that breaches confidentiality will be
terminated immediately.
Section 1

POSITIONS

All paid, employee positions shall require a negative
TB test on file, fingerprinting, a drug test, and proof of
a CA Driver’s License that is current, and once a year,
proof of sufficient CA automobile insurance and
liability.
a. Tribal Administrator: The Tribal
Administrator shall be responsible for overall supervision and management of the
Cedarville Rancheria, including contract
negotiations, wages, and compliance; and
supervision of employees according to the
salaried job description. Other duties
included, but are not limited to:
1) Planning, development, management, and
supervision of all projects contracted by Cedarville
Rancheria including calendar accountability in order to
carry out projects objectives consistent with the Tribal
Constitution and Annual Funding Agreement.
2) Reporting to the Tribal Council (Board) and all
funding agencies on a timely and regular basis, and to
establish appropriate management systems and
procedures for smooth operations of the Cedarville
Rancheria.

App. 46
3) To meet with, and positively represent Cedarville
Rancheria to the larger community, including other
tribal offices, organizations, projects, institutions,
governmental agencies, and programs.
4) To maintain, manage, and supervise all operations
related to Cedarville Rancheria and develop
appropriate training and staff development as
requested from time to time by the Board and Bureau
of Indian Affairs BIA).
5) To perform other duties as assigned by the Board to
benefit the Tribe, and the BIA to benefit the Tribal
programs.
6) If qualified and salaried, the Tribal Administrator
is responsible for payroll, taxes, and expenses, financial
statements/reports for audit, expenditures, and ledgers
under direct supervision of the Chairperson.
7) Preparing Community Development Block Grant,
Library Grants, Indian Housing Program/Housing
Urban Development grants, EPA, CSBD, FS, LIHEAP,
all BIA related grants/agreements, reporting
requirements and policies.
8) Other duties included under the Chairperson’s
supervision.
b. Administrative
Secretary:
The
Administrative Secretary assists the Tribal
Administrator in planning and implementing
activities to meet those cultural and
goals/objectives of the Annual Funding
Agreement between Cedarville Rancheria,
BIA, HUD, Library Grant, CDBG and other

App. 47
grant opportunities. Must be knowledgeable
of office procedures, filing systems and
operation of basic office equipment. Other
responsibilities are not limited to but include:
1) Establish and maintain accurate records for ATTG,
ICWA, FIRE, HIP, and General Assistance annual
reports, Board actions, appropriate correspondence;
and to prepare agendas, reports, minutes, and update
Vice Chairperson for Board reports.
2) Must be able to type 40WPM, communicate with the
service population and maintain confidentiality. Ability
to interact in a pleasant manner with the general
public.
3) Maintain personal log of time and tasks, phone logs,
calendar of events, meetings, etc. for staff and business
communication.
4) Responsible for student educational support
through tutoring, coordination of supplies to maintain
positive office management.
5) Maintenance of confidential records of the Tribal
Members and it’s employees including contracts, time
sheets, vacation and sick leave, and documents, as well
as social service and general assistance documentaion
for eligibility and assistance, in the principle office of
the Rancheria.
6) Responsible for keeping informed of Tribal
activities, schedule meetings, notify the members as
appropriate, correspond with the Board, Committees,
and other groups regarding such meetings.

App. 48
7) Knowledge of housing policies and procedures,
insurance and maintenance payments.
8) Other duties as assigned
Administrator/Chairperson.

by

the

Tribal

c. Youth Leader/Case Worker: The Youth
Leader is under the supervision and direction of the
Tribal Administrator and Chairperson to plan and
implement activities to directly meet educational and
cultural needs of Indian students, and assist in
instructional intervention. Other responsibilities as
waged in the job description are not limited to but
include:
1) Working with individual/small groups of Indian
students, using methods and materials approved by the
Tribal Administrator/Chairperson for educational and
cultural programs and providing tutoring services with
input from classroom teacher.
2) Keep accurate records of the Indian students
served, including personal data of achievement, health,
and assessment scores by regular school contacts to be
included in annual reports.
3) Maintain positive relationships and communication
with students, parents, members, collaborating
agencies, school personnel, Board and Tribal staff.
4) Assist in preparation of, and application for, school
financial aid, scholarships, oversee youth activities
including, but not limited to, tutoring, cultural/
community activities, and education trips.

App. 49
5) Maintain complete personal log of time and tasks
for quarterly reports, and update the Tribal album with
members events.
6) Maintain students progress, travel, and provide
accurate student evaluations from school grade and
attendance files.
7) Home visits as needed for member assistance with
children/parent needs. Information to provide services
and responsibilities.
8) Other duties as assigned
Administrator/Chairpersons.

by

the

Tribal

Employees working outside the Tribal Office shall be
sure that the office knows their whereabouts and can
reach them if necessary. Employees shall complete a
time card for all hours during the work month, unless
on salary. All employees are expected to work according
to contract, observe these policies and procedures of the
Cedarville Rancheria
d. EPA Coordinator: The EPA Coordinator is under
the supervision of the Tribal Administrator &
Chairperson to assist in planning and implementing
activities to meet unique environmental educational
needs of the Indian community. Oversees the
environmental program on the Cedarville
Rancheria. Informs the Rancheria of MNFS, BLM
and other agencies regarding environment concerns
or requests. Monthly newsletter to the CR, attends
meetings as required. Attention to detail and be
flexible and willing to take direction. Ability to work
under pressure. Other responsibilities are not
limited to but include:

App. 50
1) Oversee activities that include, but are not limited
to, cultural celebrations, and community activities,
Maintain positive relationships and communication
with Indian community, national, state and local
Collaborating agencies and Rancheria staff/members,
2) Establish and maintain accurate records for Board
actions, appropriate correspondence and personal log of
time and tasks for quarterly reports and wage time
cards provided timely to the Tribal Administrator,
3) Responsible for filing, typing, and any other
correspondence necessary for completion to the EPA
program,
4) Responsible for the coordination of supplies and
regular upkeep of program materials to maintain
positive environmental safe community and office,
5) Schedules meetings, notifies public as appropriate,
corresponds with Board, committee, and other groups
regarding such meetings.
6) Develop an Environmental Plan (TEP)
Obtain Regional 9 Environmental Planning Guidance
documents
Meet with community council to develop priorities for
environmental program
Research feasible solutions to environmental concerns
Estimate resource needs
Submit draft plan to EPA and community council for
comment
Finalize, Tribal Environmental Plan (One-time
Requirement)
7) Integrated Solid Waste Management Plan (ISWAP)
Obtain ISWAP template from EPA, Characterize solid

App. 51
waste generated on the Rancheria
Assess the current disposal methods, Determine if
recycling program is feasible
Present draft ISWMP to community council for
comment, Finalize ISWMP
8) Illegal Dumping Ordinance
Obtain sample ordinances from EPA and other tribes.
Develop draft ordinance ie; no barrel burning or
backyard burning; recycling; plastic/glass/paper/cans.
Work with tribal attorney and community council to
finalize ordinance
9) Education Program
Develop an education program for the community,
focusing on solid and hazardous waste:
Recycling brochure/Household hazardous waste
brochure, Monthly calendar including hazardous waste
drop-off days, Monthly newsletter, Organize clean-up
day
10) Other duties as assigned
Administrator/Chairperson.

by

the

Tribal

Employees working outside the Tribal Office shall be
sure that the office knows their whereabouts and can
reach them if necessary. Employees shall complete a
time card for all hours during the work month, unless
on salary. All employees are expected to work according
to contract, observe these policies and procedures of the
Cedarville Rancheria.
e. Economic Development Coordinator: The ED
Coordinator is under the supervision of the
Chairperson/Tribal Administrator to research ED
options and follow-through with projects.

App. 52
1)
Program development and implementation,
Ability to meet with the public in a polite &
businesslike manner; ability to establish & maintain
effective working relationship with other employees &
the public.
2)
Prepares periodic program reports to funding
agencies and Tribal Council. Formulates, prepares, and
presents to the Tribal Council for approval all
necessary resolutions, policies, manuals, ordinances,
etc.
3)
Consistently analyzes time frames, methods, and
procedures for completing program goals and
objectives.
4)
Provides programmatic information to the Tribal
Council.
5)
Develops tribal service programs according to
need.
6)

Grant Writing.

7)
Attend staff meetings & conferences as schedule
allows.
8)
Schedules meetings, notifies public as
appropriate, corresponds with Community Council,
Economic Development Committee, and other groups
regarding such meetings.
9)
Other duties as assigned by the Tribal
Administrator and/or Direct Supervisor

App. 53
10)
Knowledge of office practices, economics, and
business administration, Indian programs & ability to
communicate effectively with federal & Tribal officials,
11)
Knowledge of principles & procedures of
research, appraisal of facts, report preparation &
ability to make presentations,
12)
Knowledge of federal/state processes in relation
to program grants contracts,
13)

Must have ability to travel as necessary.

e. Maintenance/Custodian: The Maintenance/
Custodian is under the supervision of the EPA
Coordinator and the Tribal Administrator to assist in
planning and implementing activities to meet unique
preservation and sanitation needs of the Cedarville
Rancheria.
1) Supervise Hazardous Fuels/Wildland Urban
Interface Crew on schedules determined by need and
paperwork, removal of sagebrush, rocks, metal, other
debris as necessary; rototilling, planting grass, plants,
weeding; trimming trees, bushes; mowing, weed eating,
weeding around playground, weeding and watering
around the Tribal Community Center & Tribal Garage,
overall maintaining grounds/houses. Other
responsibilities are not limited to but include:
• Notify tribal office & Housing Chair of members in
violation of unnecessary debree around their house.
• Remove hazardous fuels and noxious weeds on
Rancheria lands
• Develop or maintain a fire line around the rancheria
• Remove sage brush and dry fuel materials

App. 54
• Use biomass from trees, grasses and bushes for
landscaping improvement
• Respond to road concerns on the Cedarville
Rancheria by contacting the Tribal Administrator, EPA
Coordinator and/or Chairperson.
• Maintenance of Cedarville Rancheria Roads by
mowing or weed eating, removing debree, overall
upkeep 6 feet on each side of Rancheria Way Road, two
new roads and both sides of Patterson Road from the
south rancheria boundary, in front of the rancheria,
from rental to rental house by Rancheria Way, and
Rancheria side only from Rancheria Way to north
Rancheria boundary by 2nd rental house.
Outdoors
• Composting: Household composting, lawn/garden
composting, turning compost pile and compost
container, and storing
• Red Worms Area: Possibly garden area with
compost pile and secured area for redworms
• Recycling Bins: Maintain and take recycling
products to recycling center, maintain 2 bins for
aluminum and plastic at Scales and Tribal Office in
secured area, and at SFHC
• Maintenance Grounds: Mowing/Weeding all
Flowerbeds/Weed eating, Watering; grass, trees,
flowers, bushes, trimming: trees/bushes, clean up trash
and debree on CR, Fire line around 17 acres of CR
original area, Fuel line around each residences’
property (Dev Fire Prev Prog for CR), Mow/Weedeat
hillside and CR lots
• Maintenance Buildings/Rentals: Roofs, painting,
clean chimney’s oiling/maintenance Fences, windows,
smoke detectors, clean furnaces/filter, hot water

App. 55
heaters/drain, attic insulation/crawl spaces,
weatherization houses/buildings
• Roads: Cracks, debris, sweeping sidewalks/roads,
plowing roads, shoveling sidewalks, parking lots,
elder’s driveways and residences
• Scales: Water facet, preparation for grass/
flowerbeds, rock border for plants
• Vehicles: Change Oil, recycle oil, wash, wax
(April/May and October/November), detail inside of
vehicle/equipment, maintenance
Indoors
• Inventory-December: Tools, equipment, supplies,
tell Office what supplies are needed for next summer
• Maintenance Buildings/Rentals
• Deep Cleaning at the Scales, Community Center
and Tribal Office: Windows, screens, painting, if
needed, shampooing, repairs.
• Weekly cleaning Tribal Office and Community
Center: Window sills shelves, dust pictures, desks, file
cabinets, tables. Mop bathroom floor, clean and
disinfect toilets and sink. Vacuum, sweep, mop,
hallways/doorways.
Section 2

QUALIFICATIONS

a. American Indian preference will be observed under
PL25-638.
b. Minimum qualification requirements will be
knowledge, abilities, licenses and skills required to
perform the job. Reasonable consideration shall be
given to providing employment opportunities to
persons who are willing to learn on the job. An

App. 56
appropriate education may be necessary in certain
professional descriptions.
c. Must be knowledgeable of, and relate positively to,
the unique characteristics of the Indian community as
approved by the Tribal Administrator and Chairperson.
d. Must be willing to follow directions and function
within policies and procedures. Employees shall be
trained as needed to assure high-quality performance
on the basis of adequacy of their performance.
Section 3

PROBATION

Newly appointed employees shall be subject to a period
of probation for six months. Upon successful completion
of a probationary period, an employee shall be granted
permanent status in the classification in which the
probationary period is served according to job
description limits.
a. lf at any time during the probationary period the
Tribal Administrator or immediate supervisor
determines that the services of the employee have been
unsatisfactory, the employee may be terminated with
no rights of appeal. Employee terminated during
probationary period will not be eligible for any annual
leave accrued.
b. Employment for all positions and job descriptions
are subject to Federal funding and approval of the
Executive Committee and Tribal Administrator.

App. 57
Section 4

Employee Rights

a. New employees shall receive an orientation on job
requirements and policies by the immediate supervisor
for the position according to the job description.
b. Employees shall be fully informed of the
performance requirements expected of positions they
fill and shall receive a current copy of their job
descriptions.
c. Employees shall be informed of location and
accessibility of policies and receive clarification on all
personnel matters affecting them, such as worker’s
compensation, fringe benefits, Indian preference, etc.
by the Tribal Administrator.
d. Employees shall be informed of any inadequacies in
job performance and shall have the opportunity to
improve performance through counseling or coaching
from their immediate supervisor, up to three incidents
of record prior to termination.
e. Personnel folders and information shall be available
only to the employee and officially authorized
personnel or Chairperson. In accordance with federal
regulations, personnel records of employees are not
public information.
f. Child labor laws, naturalization and immigration
laws, equal rights and all fair employment laws shall
be strictly observed.
g. No employee shall be required to lend money to any
member, participant, or other employee of the Tribe,
and in fact, such a practice is discouraged.

App. 58
ARTICLE XVI
PERFORMANCE STANDARDS AND APPRAISAL
Section 1

BASIC POLICY

It shall be the responsibility of the Tribal
Administrator to provide performance standards and to
evaluate employee performance on an on going basis,
and to keep the employee advised as to the adequacy of
performance.
A.

GOALS
OF
THE
PERFORMANCE
STANDARD AND APPRAISAL PROGRAM

The goals of the performance Standard and Appraisal
Program are:
1. To ensure that each employee has specific
knowledge of the job responsibilities of his unit,
of his particular position within the unit, and of
his performance in relation to established
standards.
2. To promote employee capacity for better job
performance and for advancement to more
responsible positions.
3. To provide the basis for recommendations for
tenure and salary and to identify training needs
of individual employees.
B.

PROCEDURES
1. FREQUENCY: All employees newly
appointed to any position are to be provided
immediately with written performance
standards and have a formal performance

App. 59
appraisal completed not later than three
(3) months after appointment. A subsequent
formal performance appraisal, base on
performance standards, shall be completed at
least ten days before the end of the first six
month period.
2. This performance appraisal shall be the basis
for recommending performance status for
employees who are required to serve only a six
month probation period. At least ten days before
the end of the first year in a position, another
performance appraisal based on performance
standards shall be completed. Subsequent
performance appraisals shall be done annually.
3. A formal performance appraisal may be
completed at any time for a permanent employee
whose performance is considered to have fallen
below standard. Such performance appraisals
shall be the basis for remedial action, or to
document and justify disciplinary action.
The completion of a formal performance
appraisal shall require a face-to- face evaluation
conference between the supervisor and
employee, except when an employee has
terminated and is not available for the
evaluation conference.
4. The Tribal Administrator shall maintain a
list of the due dates for evaluation of all
employees. All evaluations to be done by the
Tribal Administrator shall be scheduled for
review with the Chairperson.

App. 60
5. The original of the performance standard and
appraisal form shall be filed in the employee’s
personnel file, a copy shall go to the immediate
supervisor, and a copy to the employee.
C.

CAUSES FOR DISCIPLINARY ACTION

1. It is the responsibility of all employees to observe
the regulations necessary for the proper operation of
the Rancheria. Administrative procedures have been
established for the handling of disciplinary measures
such as reprimand, suspension, demotion, and
dismissal.
2. If an employee receives two (2) written reprimand
notices for offenses such as the following (for the
same or different offenses) within a period of twelve
(12) consecutive months, the employee shall, along
with the second such notice, receive disciplinary
action commensurate with the severity of the
accumulated offense.
3. Upon receipt of the third written reprimand notice
(for the same or different offenses) within the same
consecutive twelve (12) month period, The employee
may be dismissed. If a decision is made to dismiss an
employee, the employee will be informed in writing of
the reasons for their dismissal and of the right and
method of appeal. They will be given a minimum of two
weeks notice.
4. A copy of each written reprimand will be placed in
the employee’s personnel folder and given to the
employee. Written reprimands will be purged from an
employee’s file at the end of twelve (12) months from
the date of issuance.

App. 61
5. The immediate supervisor will sign the first two
reprimands. The third reprimand shall also require the
signature of the Tribal Administrator.
6. Causes for disciplinary action shall include, but are
not limited to:
a. Excessive absenteeism and/or tardiness, abuse
of sick leave, insubordination constituting a breach
of discipline, which remains uncorrected after
warning or is particularly serious in any one
instance.
b. Rough or boisterous play or pranks on the job
which disrupt work or are minor safety hazards.
c. Violating a safety rule or safety practice.
d. Failure to report to work without notification to
the immediate supervisor, unless it is later shown
that such notice was impossible to give.
e. Gross neglect of duty or refusal to comply with a
lawful instruction, unless such instruction is
injurious to the employee’s general health or safety.
f. Indulging in offensive language towards others
while on the job.
g. Being under the influence of intoxicants or drugs
while on duty.
h. Sleeping on duty.
i. Inattentiveness to work, failing to start work at
the designated time, quitting work before the
designated time, or leaving the work area during

App. 62
working hours without authorization from the
supervisor.
j. Vending, soliciting, or collecting contributions on
CR time or premises without proper authorization;
gambling.
k. Misfeasance or malfeasance in the performance
of duty.
l. Use of CR personnel, property or other resources
(including the employee’s own work time) for
personal reasons, purposes, or gain without the
supervisor’s prior approval.
D.

CAUSES FOR IMMEDIATE DISCIPLINARY
ACTION OR DISMISSAL

1. Immediate disciplinary action may be taken, or the
employee may be dismissed immediately only for
serious causes such as the following. Supervisors
should make every attempt to be fair and match the
disciplinary action with the severity of the offense:
a. Using, attempting to use, personal or
political influence in an effort to secure special
consideration as a Rancheria employee or
applicant for employment.
b. Incompetency and/or inefficiency in the
performance of job duties which result in not
maintaining a satisfactory performance rating,
provided that the employee has been counseled
and notified in writing that job performance has
been satisfactory.

App. 63
c. Absence from work for two consecutive work
days without authorization.
d. Major theft or intentional destruction of CR
property.
e. Intentional falsification of personnel records,
time reports, or other Rancheria records.
f. Being under the influence of intoxicants or
drugs while on duty.
g. Fighting on the job, except in self-defense.
h. Carelessness or negligence with the monies
or property of the Rancheria
i. Discrimination as defined in the Manual (see
Section 2-A).
j. Inducing or attempting to induce any
employee in the service of the CR to commit an
unlawful act, or to act in violation of CR
regulations, official policy, or departmental
orders.
k. Violation of personnel rules, official policies,
or departmental orders.
l. Major misfeasance or malfeasance in the
performance of duty.
m. Any deliberate action which endangers the
health or safety of the employee or others.
n. Insubordination, constituting a breach of discipline,
which remains uncorrected after warning or is
particularly serious in any one instance.

App. 64
o. Use of Rancheria personnel, property or other
resources (including the employee’s own work time) for
personal reasons, purposes or gain without the
supervisor’s prior approval.
p. Indecent conduct or notoriety that seriously
jeopardizes the effectiveness of Tribal programs.
TYPES OF DISCIPLINARY ACTION THAT
WILL BE UTILIZED
The following types of disciplinary action will be
utilized as necessary in enforcing CR work rules and
standards of conduct. The specific type and degree of
disciplinary action will be determined by the nature of
the offense.
Before disciplinary actions are taken because of
unsatisfactory work performance, counseling training,
discussion of work standards voluntary reassignment
of duties and other positive action should be
considered.
A supervisor may initiate the following disciplinary
actions in the order below, however, they may be used
selectively as appropriate. The disciplinary actions may
be stopped at any step when the work behavior of the
employee improves.
a. VERBAL WARNING - When an employee’s
performance falls below standard or any employee’s
conduct becomes improper, his supervisor shall inform
the employee promptly and specifically of such a lapse.
If appropriate, a reasonable period for improvement or
correction may be allowed before initiating further
action.

App. 65
b. WRITTEN REPRIMAND (Corrective Interview) An employee should be informed in advance that a
scheduled interview is for corrective purposes and the
subject matter, so that the employee may prepare.
Prior notice of purpose and subject matter is not
required where employee dishonesty is involved.
In this interview the employee’s supervisor shall
discuss clearly and frankly with the employee the
reason(s) necessitating the interview. The supervisor,
as part of this interview, should offer to the employee
specific suggestions for corrective action to be taken by
the employee and written standards for expected
performance. The reason for this interview and the
action recommended should be recorded by the
supervisor.
The employee and supervisor should sign the record to
acknowledge that the interview occurred. A copy of the
record will be retained by the supervisor, a copy given
to the employee, and a copy placed in the personnel
folder.
c. SUSPENDED WITHOUT PAY - The Tribal
Administrator or the immediate supervisor may
suspend any employee without pay.
d. DEMOTION (Involuntary) - The Tribal
Administrator or the immediate supervisor may
demote an employee who is not satisfactorily
performing the duties of that position. The employee
must meet the minimum qualifications for the new
position.
e. INVOLUNTARY TERMINATION (Dismissal) - Any
employee may be dismissed by the Tribal

App. 66
Administrator for cause in accordance with the
provisions of the manual. Causes for dismissal include:
1) Incompetence and/or inefficiency in performance
of the job duties providing the employee has been
counseled and notified in writing 30 days before
dismissal of job performance being unsatisfactory;
2) Absence from work as stated in Article XV, D;
3) Theft or intentional destruction of property;
intentional falsification of records, indecent conduct
or notoriety that seriously jeopardizes effectiveness
of the program;
4) Under the influence/possession
substances while on duty;

of

any

5) Fighting on the job except in self-defense, or
endangering the health or safety of self or others;
6) Carelessness/negligence with monies or
property, insubordination, use of personnel property
or other resources for personal reasons, purposes, or
gain without the Tribal Administrators prior
approval;
7) Violation of personnel rules, office policies,
departmental orders, or procedures.
Section 2

TERMINATION OF EMPLOYMENT

A. VOLUNTARY TERMINATION: Any employee
desiring to resign shall notify the immediate supervisor
in writing by two weeks notice, specifying the effective
date. Failure to give at least 2 weeks notice may cause
denial of future reinstatement. A resignation may not

App. 67
be withdrawn after position has been advertised.
Waiver of required notice may be granted by the
Chairperson and Tribal Administrator.
An employee that submits a resignation will be
required to perform duties until the resignation
becomes effective. The Tribal Administrator may
terminate an employee prior to the resignation date if
the employee is not performing duties as assigned.
B. LAYOFFS: A layoff shall be considered as removal
from a position because of the abolition of the position,
due to lack of work or funds, reorganization, program
reduction, or other administrative readjustment.
1) When more then one employee is involved, the
immediate supervisor shall establish a list showing
the order in which employees are to be laid off on
the basis of performance and seniority.
C. DISABILITY: An employee may be separated for
disability when unable to perform the required duties
because of physical or mental impairment. Each
employee shall be responsible for those items assigned
for his/her use in performing prescribed duties.
1) Upon termination of employment, the employee
shall account for all such assigned items. In the event
any such items are missing or not accounted for, the
employee’s final paycheck may be withheld until such
time said items have been returned or accounted for.
Death
l. Separation shall be effective as of the date of
death.

App. 68
2. All compensation and accrued vacation shall be
paid to the estate or beneficiary of the employee,
except for such sums which by law must be paid
directly to the surviving spouse.
ARTICLE XVII
HOLIDAYS
The Tribal Office employees will be given time off with
pay for the designated holidays:
NEW YEARS EVE
NEW YEARS DAY
MARTIN LUTHER KING DAY
LINCOLN’S BIRTHDAY
WASHINGTON’S BIRTHDAY
MEMORIAL DAY
AMERICAN INDIAN DAY(2nd Fri. in May
INDEPENDENCE DAY
LABOR DAY
CALIF. AMERICAN INDIAN(4th Fri. in Sept.)
VETERAN’S DAY
THANKSGIVING DAY/NA HERITAGE DAY
CHRISTMAS EVE
CHRISTMAS DAY
a. If any holidays fall on Sunday, it will be observed on
the Monday immediately following. If any holiday falls
on a Saturday, it will be observed on the Friday
immediately preceding. If any holiday falls on an
employees days off, it will be observed preceding or
following the scheduled day off.
b. Employees working full days schedules, will receive
full-time compensation. Part-time employee will be

App. 69
compensated in proportion to the number of hours they
are normally scheduled to work.
c. An employee will not be charged for approved
annual or sick leave days which occur on holidays.
d. In order to be eligible for holiday pay, an employee
must have been in paid status the working day prior to
or following the recognized holiday. If employee is
AWOL for any number of hours on these days he/she
will not receive holiday pay.
ARTICLE XVIII
ATTENDANCE AND LEAVE POLICY
Section 1

ATTENDANCE

a. Each employee shall fill out and sign biweekly
reports showing all hours worked and leave of absence,
as appropriate. The time report shall be submitted on
the 15th & 31st.
b. All time reports must be signed by the Tribal
Administrator before action can be taken to process a
salary payment.
c. If any employee is paid for time not worked, such
overpayment will be deducted from their checks for the
following pay period.
d. Written permission will be required for anyone
picking up an employee’s check.
e. No checks will be released without the approval of
the Tribal Administrator.

App. 70
1.

GENERAL PROVISIONS FOR LEAVE

Eligibility: For the purpose of determining
eligibility for leave allowance, the term
“continuous service” shall be that service
commencing with initial appointment and
continuing until resignation or discharge.
Section 2

GENERAL LEAVE POLICY

As a benefit to its employees and to its own operational
effectiveness, the Cedarville Rancheria recognizes and
grants various kinds of leave in paid and/or unpaid
status. All leave must be authorized. Leave which is
not authorized will be cause for disciplinary action.
Leave records must be maintained in each employee’s
personal file. Annual leave is to be used by employees
to assure they are receiving adequate rest and
relaxation. Sick leave is to be used to ASSURE THE
GOOD HEALTH OF EMPLOYEES.
Section 3

FLEXTIME

As a benefit to employees and for improved
organizational effectiveness, the Cedarville Rancheria
will adopt flextime in program areas where it is
deemed beneficial. Flextime is a system of flexible
working hours that allows employees to tailor their
workday or workweek to workload patterns and to
personal needs.
Section 4

ANNUAL LEAVE

Annual Leave is an employee fringe benefit. An
employee is required to make advanced arrangements
for annual leave with the Tribal Administrator.

App. 71
a. Employees may not carry over annual
leave into next calendar year.
b. No annual leave benefits will be earned
during any period when an employee is
AWOL or on leave without pay.
c. No annual leave can be used within the
same pay period it is earned.
d. Eligible employees shall be paid for their
unused annual leave days at their final rate
of pay regardless of their reason for
termination.
Section 5

ANNUAL LEAVE ACCRUED

Employees will accrue annual leave benefits based
upon the number of years of service with the Cedarville
Rancheria.
a. Full-time employees with three years or
less creditable service will accrue eight hours
of annual leave a month.
b. Full-time employees with three to twelve
years creditable service will accrue sixteen
hours of annual leave per month.
c. Full-time employees with thirteen years
and over of creditable service will accrue
twenty-four hours of annual leave per month.
d. Part-time temporary employees who are
employed longer than 30 days will accrue
annual leave, as stated above but on a pro-

App. 72
rated basis to the number of hours worked
each month.
e. An employee may not carry any hours
into the next calendar year, unless prior
approval by the Tribal Administrator/
Chairperson is made.
Section 6

ANNUAL LEAVE COMPENSATION

Employees who have accrued an excess of annual leave
may request cash payoff in lieu of taking time off from
work.
a. Employees payoff will be made only in
increments of 40 hours.
b. Employees are encouraged to use at least
80 hours of annual leave per year to insure
that they are receiving proper rest and
relaxation away from the working
environment.
c. Employees must request cash payoff in
writing. All requests will be approved by the
Tribal Administrator in consultation with the
Chairperson.
Section 7

ADVANCED ANNUAL LEAVE

As an employee benefit, advanced annual leave may be
granted when justified. Such requests will be subject to
Tribal Administrator/Chairperson approval. No
employee may have a negative balance.

App. 73
Section 8

SICK LEAVE

Sick leave is an employee fringe benefit. For medical
treatment purposes employees are requested to make
advance arrangements for sick leave. Depending on the
circumstances, sick leave authorization and use is
subject to supervisory approval.
Section 9

HEALTH PRACTICES

Employees are expected to observe health practices
that contribute to their work performance and service
effectiveness.
a. Employees who take sick leave are expected to seek
treatment and to take care of themselves during that
leave. Employees are not to report to work if they are
ill. A sick worker performs poorly, prolongs his/her
recovery, and endangers the health of others.
b. Employees who use sick leave in excess of three
days may be required to submit medical certification of
diagnosis and/or treatment if the supervisor feels there
has been abuse of sick leave.
c. Subject to supervisory approval, sick leave benefits
may be used by the employees to care for sick family
members.
d. All employees accrue eight hours of sick leave every
month. Part-time will accrue sick leave on a prorated
basis to the number of hours worked each month.
There is no limit on accumulation of sick leave.
Absolutely no payments for accrued sick leave will be
made upon separation under any circumstances.

App. 74
Section 10 MATERNITY LEAVE
The following guidelines will govern maternity leave.
a. At her request, a woman may take up to 90 days of
maternity leave, job compensation and fringe benefits
held as is, until her return to duty. The Council is
under no obligation to hold a position open during a
maternity leave that exceeds 90 days. However, they
may elect to do so. In such case, the Council’s
commitment of the employee must be stated in writing.
b. During maternity leave, a woman may elect to
apply leave credits she has accrued. When such leave
benefits are used, the remainder of the maternity leave
will be without pay.
c. Paternal leave will be granted to employees wishing
to utilize annual leave or leave without pay.
Section 11 MILITARY LEAVE
In order to help accommodate U.S. national defense
needs and to help employees meet their military
obligations the Cedarville Rancheria will adhere to the
following guidelines on military leave.
a. A full-time employee who is a member of a reserve
component of the U.S. Armed Forces will be allowed
leave for required annual military training or duty for
a period not to exceed 15 working days a year.
b. An employee may elect to use annual leave and
keep his military compensation, or he may surrender
his military pay to Cedarville Rancheria and be
granted leave of absence with pay.

App. 75
Section 12 JURY OR WITNESS DUTY
Upon receipt of a summons to jury duty or testimony in
legal or official proceedings, an employee will be
granted leave of absence with pay. Official
compensation to an employee for such appearance will
be surrendered to the Cedarville Rancheria in cash (if
paid to the employee in cash) or in the form of a check
endorsed payable to the Cedarville Rancheria (if paid
to the employee by check).
Section 13 A D M I N I S T R A T I O N L E A V E
(EMERGENCY)
Employee will be granted leave of absence for death in
the immediate family, and spouse’s immediate family,
attendance at funeral of immediate family, and
inability to travel to work safely because of 3 unusually
severe weather or natural disaster. Absence of more
that three days for this purpose will require the
employee to request annual leave or LWOP.
a. It is each employee’s responsibility to report
emergency leave circumstances to his/her
supervisor as soon as he/she becomes aware of
such circumstances, with final approval by the
Tribal Administrator/ Chairperson.
Section 14 LEAVE OF ABSENSE
The Chairperson may grant an employee leave without
pay for a period not to exceed 90 days. Under special
circumstances the Tribal Administrator may grant an
employee leave without pay for a maximum of 30 days.
Any request in excess of 90 days must be presented to
the Executive Committee. However, Cedarville

App. 76
Rancheria is under no obligation to hold an employee’s
position or compensation level if the period of leave
exceeds the specified number of days granted.
Section 15 RELIGIOUS/ TRADITIONAL LEAVE
To support Indian employees wishing to practice Indian
traditions and Indian religion, Religious/Traditional
leave is available. Leave must be requested in writing
and approved prior to such events. Leave to be
approved by the Tribal Administrator in consultation
with the Chairperson.
Section 16 EDUCATIONAL LEAVE
Educational Leave is available to Tribal employees as
leave without pay not to exceed eight hours per week.
Educational leave may be granted, if attendance at an
accredited educational institute will benefit the Tribal
service, aid the employee’s career development, and not
jeopardize the quality of service provided by the
program. The Tribal Administrator/Chairperson must
approve all such leave prior to attendance by the
employee.
a. The Tribal program is under no obligation to
pay expenses of employees enrolled in such
training,
b. Educational Leave without pay may be
granted up to one year if it will benefit the Tribe.
Special approval must be requested by the
Tribal Administrator and granted by the
Chairperson.

App. 77
ARTICLE XX
GRIEVANCES, APPEALS AND DISCIPLINE
Section 1
A. GRIEVANCES
A grievance is defined as a circumstance thought to be
unjust or injurious and grounds for complaint.
All employees subjected to disciplinary action may file
a grievance. Grievances shall be filed and processed in
the following manner and within the time-frame
specified, unless time limits are waived by written
mutual consent of both parties concerned or by the
Tribal Administrator.
B. GRIEVANCE STEPS
a. When a complaint cannot be resolved at the level at
which the disagreement or dissatisfaction occurred, a
written complaint shall be prepared by the aggrieved
employee. The written statement will give specific
details of the complaint and the action or redress
desired by the aggrieved employee. This complaint is to
be submitted to the supervisor or administrative staff
person at the level at which the cause of the grievance
occurred. Written decision shall be given to the
aggrieved employee within five (5) working days of the
filing of the complaint. If the grievance remains
unresolved, the employee may proceed to Step b.
b. Within five (5) working days of the date the written
decision in Step a., is received or is due, the aggrieved
employee may present the written complaint to the
Tribal Administrator, if the cause of grievance occurred

App. 78
at or above the level of the Manager, the employee is to
submit the written complaint to the next level of
supervision or administration above the level of
occurrence. The Tribal Administrator or other
appropriate level of administration will render a
written decision within five (5) working days from the
date the complaint was referred to that level. If the
grievance remains unresolved, proceed to Step c.
c. Within five (5) working days of the date the decision
in Step b., is received or due, the aggrieved employee
may present a written request to the Tribal
Administrator for review by the Council. Copies of all
relevant materials and decisions rendered under
previous steps of the grievance process shall be
submitted to the Tribal Administrator. The Council
shall review all pertinent facts and issue a written
decision within ten (10) working days. The review by
the Council may include personal interviews with the
aggrieved employee and supervisor or administrative
staff involved, but such personal interviews are not
final, except as otherwise provided for under Appeals.
d. In the case of the Tribal Administrator, the
foregoing procedures will be directed to the Tribal
Council.
C. APPEALS
a. An appeal is defined as a request from an employee
for the Council to review any administrative action or
decision which is alleged to violate certain rights of the
employee either under applicable law, or the official
Personnel Policies of the Rancheria.

App. 79
b. The alleged violation of the following rights shall be
appealable to the Council, after all other
administrative remedies have been exhausted.
1) The right not to be discriminated against in
any aspect of employment because of sex, race,
national origin, age, political or religious
affiliation.
2) The right to due process in the application of
personnel policies related to disciplinary action.
c. Due process in the application of personnel policies
and generally throughout the operation of the
Rancheria, shall mean only the rudiments of due
process. That is, notice of the charge or complaint or
proposed action and an opportunity to be heard on that
subject, not a right of confrontation or cross
examination.
d. The following disciplinary action provided forth in
CR Personnel Policies shall be appealable to the
Council, after all other administrative remedies have
been exhausted.
1) Suspension without pay for more than
two(2) days.
2) Involuntary demotion
3) Involuntary termination.
D. APPEAL PROCEDURES
a. The employee wishing to appeal shall send a
written statement of facts and a request for a hearing
to the Tribal Administrator. The written statements
must specify the action or decision being appealed and

App. 80
the right under law, or the policies, allegedly violated.
The Tribal Administrator makes the following
determinations:
1) Is the matter appealable under CR policy?
2) Have all administrative remedies been
exhausted?
If the answer to either question is no, refer the matter
back to the originator with a written statement as to
the grounds upon which it was determined that an
appeal was out of order at that point in time. A written
decision shall be sent by the Tribal Administrator
within five (5) working days after receipt of the written
request for a hearing. If the answer to both questions
listed above is yes, proceed to Step b.
b. The Tribal Administrator shall refer the request for
a hearing to the Council with a written statement that
it is an appealable issue under Personnel Policies. The
statement shall not express any opinion on the merits
of the appeal. The Tribal Administrator will schedule
the hearing before the Council at the next meeting. The
employee shall be sent a written notice of the date,
time, and place of the Council meeting.
c. The Tribal Administrator has the option of
reviewing the situation at the point the request for
hearing is referred to him, including seeking the
opinion of legal counsel, and may resolve the issue to
the satisfaction of the appellant employee without
proceeding to the hearing before the Council. Such
review may not be used to delay a hearing before the
Council from one meeting to another. The hearing shall

App. 81
be scheduled as provided above. If the matter is
resolved, the hearing will be canceled.
E. APPEAL HEARINGS
a. The appeal hearing is subject to the control of the
Council. The hearing shall be presided over as other
council meetings and the general format will be
followed unless the Council decides o vary the
procedure.
b. No hearing shall be defective merely because the
appealing employee was not present for whatever
reason, nor because the person involved in the acts
complained about was not present for whatever reason,
so long as the Council feels it has been fully informed
and has discussed the matter.
c. An employee’s appeal shall be heard by the Council
in closed session, usually at the end of other business,
unless the Council chooses, or the employee has been
informed of, another time.
d. The appealing employee has the right to
representation by, or assistance from, counsel or any
other representative at the employee’s expense. The
representative may be present during the hearing at
any time the employee is present, or would be allowed
to be present, and at any other time allowed by the
Council.
The employee shall have no right to have the hearing
continued, rescheduled, or relocated for the employee’s
representative’s convenience or benefit, although the
Council may do so at its discretion,

App. 82
e. The hearing will be called to order and the
procedures to be followed will be explained to the
Council members, the appealing employee, and all
personnel involved in, or responsible for, the acts
complained of in the appeal.
f. The appealing employee and other staff involved in
the matter, shall leave the hearing. The Council shall
hear a synopsis and introduction of the matter from the
Tribal Administrator, Council member, or other
appropriate person,.the Council shall then hear the
respective sides of the matter.
g. Personnel involved in the matter on appeal, or
someone on their behalf, shall present all of the facts
and issues surrounding the disciplinary action or
alleged violation. Personnel shall then leave the
hearing.
h. The appealing employee, either in person or through
representatives, shall next present the employee’s side
of the matter. The Council may hear witnesses or
presentations in the order above or any other order. All
witnesses may be called more than once by the Council
to answer further questions. Aside from the right to
present the employees version of the matter to the
Council, the appealing employee has no right to
confront other witnesses, either for or against the
employee, except at the discretion of the Council. An
employee will normally be allowed to be present during
the presentation by any witness the employee has
called on in the employee’s favor.
i. During the hearing, any Council member may ask
any appropriate questions, present further information,

App. 83
or comment. After the Council has heard all of the
evidence that persons involved wish to present, and
pursued all further questions of its own that the
members desire, the Council shall fully deliberate the
matter.
j. After full deliberation, a motion may be made to
either uphold or overturn the actions complained of, or
to provide other or no relief to the appealing employee.
If any motion fails, further motions may be made. If no
motion is made and seconded, the presiding officer
shall make a motion, requiring no second, that the
action complained of shall be upheld and no further or
other relief be granted to the appealing employee.
h. After the final votes on the motions, all persons
involved should be invited back to the hearing to hear
an oral announcement of the decision. In any event, the
Tribal Administrator shall inform the appealing
employee in writing of the Council’s decision within
five (5) days.
l. The decision of the Council shall be final, and a
matter once heard and decided shall not be
reconsidered except upon a majority vote of the Council
after a written application for reconsideration from the
employee to the Tribal Administrator. A motion for
reconsideration may be made at any time, but the
sooner the better. State matters cannot be pursued
unless new evidence or issues have arisen.

App. 84

APPENDIX 3
Exhibit “3”
[Dated March 18, 2011]
_________________________
United States Department of the Interior
BUREAU OF INDIAN AFFAIRS
Pacific Regional Office
2800 Cottage Way
Sacramento, California 95825
CONSTITUTION AND BYLAWS
OF THE
CEDARVILLE RANCHERIA
MODOC COUNTY
CEDARVILLE, CALIFORNIA
CERTIFICATE OF RESULTS OF ELECTION
Pursuant to an election authorized by the Regional
Director, Pacific Region, Bureau of Indian Affairs, as
delegated to the Regional Directors by Memorandum
dated October 11, 2006, on _FEB 24, 2011_, the
attached proposed CONSTITUTION AND BYLAWS
OF THE CEDARVILLE RANCHERIA, was submitted
to the qualified voters of the Tribe and was on
_FEB 24, 2011_, duly adopted/rejected by a vote of
_5_ for and _0_ against, and _0_ cast ballots found to be
spoiled or mutilated, in an election in which at least
thirty percent (30%) of the _8_ entitled to vote cast
their votes in accordance with Section 16 of the Indian

App. 85
Reorganization Act of June 18, 1934 (48 Stat. 984), as
amended.
__________/s/__________
Chairperson, Election Board
__________/s/__________
Election Board Member
__________/s/__________
Election Board Member
__________/s/__________
Election Board Member
Date: _MARCH 4, 2011_ __________/s/__________
Election Board Member

App. 86
United States Department of the Interior
BUREAU OF INDIAN AFFAIRS
Pacific Regional Office
2800 Cottage Way
Sacramento, California 95825
CERTIFICATE OF APPROVAL
The Constitution and Bylaws of the Cedarville
Rancheria, Modoc County, Cedarville, California which
was adopted by the qualified voters of the Tribe on
February 24, 2011, is hereby approved pursuant to the
authority delegated to the Secretary of the Interior by
the Act of June 18, 1934 (48 Stat 984), as amended and
delegated to me by the Director, Bureau of Indian
Affairs. This approval is effective as of this date;
provided that nothing in this approval shall be
construed as authorizing any action under this
document that would be contrary to Federal Law.
__________/s/__________
Regional Director
_______3/18/11_______
Date

App. 87
CONSTITUTION AND BYLAWS
OF THE
CEDARVILLE RANCHERIA
MODOC COUNTY
CEDARVILLE, CALIFORNIA
The CONSTITUTION OF THE CEDARVILLE
RANCHERIA MODOC COUNTY CEDARVILLE,
CALIFORNIA, shall be amended in its entirety to read
as follows:
PREAMBLE
We, the adult members of the Cedarville Rancheria, in
Modoc County, California, in order to establish a
formal organization and to secure the privileges and
powers provided for by the Indian Reorganization Act
of June 18, 1934 (48 Stat .984), do hereby ordain and
establish this Constitution and Bylaws.
ARTICLE I – NAME
The name of this Organization shall be the Cedarville
Rancheria hereafter referred to as the Rancheria.
ARTICLE II – TERRITORY
The jurisdiction of this Organization shall extend to the
land now within the confines of the Cedarville
Rancheria and to such other lands as may hereafter be
added thereto.
ARTICLE Ill – MEMBERSHIP
Section 1.

The membership of the Rancheria shall
consist of:

App. 88
(a)

All persons of the Rancheria whose names
appear on or are entitled to appear on the
Official Census Roll, dated July 18, 1954;

(b)

All persons of California Indian descent
who reside on the Cedarville Rancheria,
California, and have resided there
continuously for a period of at least two
(2) years, at the time of adoption of this
Constitution, provided they make
application for enrollment and provided
further they receive a majority vote of the
Community Council;

(c)

All lineal
members.

descendants

of

enrolled

Section 2.

No persons shall be a member of the
Rancheria if he:

(a)

Was a member of any tribe or band of
Indians when its trust relationship with
the Federal Government was terminated
except those persons listed as dependent
members on final rolls of California
Rancheria or whose tribal status has been
reinstated by the courts;

(b)

Has been allotted on another reservation
or on the public domain;

(c)

Is officially enrolled with or is recognized
as a member of another tribe or band. A
“recognized” member of another tribe or
band of Indians is a person who has
received a land-use assignment or

App. 89
payments by reason of membership in
another tribe or Rancheria, except
through inheritance;
or
(d)
Section 3.

Has relinquished, in writing,
membership in the Rancheria.

his

The governing body shall adopt an
enrollment ordinance, subject to the
approval of the Secretary of the Interior,
governing future membership, loss of
membership, and the adoption of new
members, and prescribe rules and
procedures by which the membership roll
shall be prepared and thereafter kept
current; provided, that the Executive
Committee reserves the right to
periodically close the rolls from time to
time upon a majority vote of the
Executive Committee.

ARTICLE IV – GOVERNING BODY
Section 1.

The governing body of the Rancheria shall
be the Community Council composed of
all qualified voters of the Rancheria who
are eighteen (18) years of age or older.

Section 2.

The Community Council shall elect from
its members, who are active qualified
voters, by secret ballot, an Executive
Committee of a Chairperson, a Secretary,
and a Vice Chairperson, who shall hold
office for three years or until their
successors are duly elected and installed.

App. 90
Such other committees may be appointed
or elected as from time to time may be
deemed necessary.
ARTICLE V – MEETINGS
Section 1.

Regular meetings of the Community
Council shall be held on the first (1st)
Saturday in Jan April of each year at
2:00pm 1:00 p.m., at a place designated
by the Executive Committee. Special
meetings may be called at any time by the
Chairperson and shall be called promptly
upon receipt of petitions signed by a
majority of the active qualified voters
requesting such meetings.

Section 2.

A majority of the active qualified voters
shall constitute a quorum at all meetings
of the Community Council. Notices of all
Community Council meetings shall be
given in writing at least two (2) weeks in
advance of the meetings to all qualified
voters.

Section 3.

The term “qualified voter” refers to any
member of the Rancheria who will be at
least eighteen (18) years of age on the day
of any regular or special meeting.

Section 4.

The term “active qualified voter” refers to
those qualified voters that have been
active in at least eighty (80) percent of all
tribal events in the six (6) months
preceding an election or Community
Council meeting. Tribal events shall

App. 91
include but are not limited to: holidays,
ceremonies, tribal meetings, conferences,
and community functions. The absence of
a member may be excused due to medical
or unforeseen circumstances upon written
request to the Secretary of the Executive
Committee within ten (10) days of the
tribal event and subject to the approval of
a majority of the Executive Committee.
Section 5.

Meetings of the Executive Committee
may be called by the Chairperson, or in
his absence, by the Secretary or Vice
Chairperson when deemed necessary.
Two (2) members of the Executive
Committee shall constitute a quorum for
the conduct of its business.
ARTICLE VI – ELECTIONS

Section 1.

The Executive Committee in existence on
the effective date of this Constitution and
Bylaws shall continue to function until
those officials elected at the next
scheduled election, pursuant to this
Constitution, are duly installed in office.

Section 2.

All elections officers shall be by secret
ballot. Regular elections of officers shall
be conducted at the January meetings of
the Community Council each third (3)
year in accordance with an election
ordinance adopted by the Executive
Committee.

App. 92
Section 3.

To serve as an officer, a person must be
an active qualified voter.

Section 4.

Any enrolled member of the Rancheria
who is eighteen (18) years of age or older
shall be entitled to vote in tribal elections.

ARTICLE VII – VACANCIES AND REMOVAL
Section 1.

If an officer shall die, resign, be recalled
from his office, relinquish tribal
membership in writing or shall be found
guilty in any Tribal, State or Federal
Court of a felony while in office, the
Community Council shall declare the
position vacant and shall proceed to
nominate candidates and elect a
replacement officer who shall serve the
unexpired term of office.

Section 2.

Upon receipt of a petition signed by thirty
(30) percent of the active qualified voters
requesting the recall of an officer, the
Executive Committee shall call a special
Community Council meeting to hear the
charges against the officer. Before any
vote for recall is taken such officer shall
be given a written statement of the
charges against him at east one (1) week
before the meeting of the Community
Council at which the matter of recall is to
be decided and of the date, hour and place
of the Community Council meetings at
which time he may appear and answer
any and all charges. Such Community

App. 93
Council meeting shall be held within two
(2) weeks of the date that a valid petition
for removal action is filed with the
Executive Committee. After the accused
has had an opportunity to be heard by the
Community Council, a secret ballot vote
for or against recall will be conducted.
The decision of a majority of those present
and voting shall govern, provided that a
majority of the active qualified voters
shall vote. If the majority vote is for recall
of the accused officer, his office shall
automatically be vacated and the
Community Council shall proceed to
nominate candidates and elect a
replacement officer who shall serve the
unexpired term of office.
Section 3.

In the event that a recall vote is
unsuccessful, the subject of the
unsuccessful recall election shall not be
subject to another recall election which is
based upon the same or similar grounds
for at least one year from the date of the
recall election.

ARTICLE VIII – POWERS OF THE
GOVERNING BODY
Section 1.

The Community Council of the Rancheria
shall exercise the following powers
subject to any limitations imposed by the
Constitution, Federal Law and the
Constitution of the United States;

App. 94
(a)

To negotiate with Tribal, Federal, State
and local governments;

(b)

To retain legal counsel;

(c)

To veto any proposed sale, disposition,
lease or encumbrance of tribal lands,
interest in lands or other tribal assets of
the Rancheria;

(d)

To establish such housing and other
authorities as are necessary to promote
the welfare of the Rancheria;

(e)

To control future membership, loss of
membership and the adoption of
members; and

(f)

To waive the sovereign immunity of the
Tribe.

Section 2.

The Executive Committee shall have the
following powers, but shall not commit
the Rancheria to any contract, lease or
other transaction unless it is authorized
in advance by duly enacted ordinance or
resolution of the Community Council:

(a)

Carry out all ordinances, resolutions or
other enactments of the Community
Council; and

(b)

Represent the Cedarville Community
Council in all negotiations with Tribal,
Federal, State, and local governments and
advise the Community Council of the
results of all such negotiations.

App. 95
Section 3.

Any rights or powers heretofore vested in
the Rancheria, but not expressly referred
to in this Constitution, shall not be lost by
their omission but may be exercised by
the adoption of appropriate amendments
to this Constitution.

ARTICLE IX – BILL OF RIGHTS
Section 1.

Subject to the limitations imposed by this
Constitution,
all members of the
Rancheria shall enjoy equal political
rights and opportunities to participate in
the Community Council; Rancheria
economic resources, Rancheria assets,
and all the rights that are conferred upon
a member of the Rancheria.

Section 2.

The Rancheria in exercising its powers of
self-government, in accordance with
Title II of the Indian Civil Rights Act of
1968 (82 Stat. 77), shall not:

(a)

Make or enforce any law prohibiting the
full exercise of religion, or abridging the
freedom of speech, or of the press, or the
right of the people peaceably to assemble
and to petition for a redress of grievances;

(b)

Violate the right of the people to be secure
in their persons, houses, papers and
effects against unreasonable search and
seizure, nor issue warrants, but upon
probable cause, supported by oath or
affirmation, and particularly describing

App. 96
the place to be searched and the person or
thing to be seized;
(c)

Subject any person for the same offense to
be twice put in jeopardy;

(d)

Compel any person in any criminal case
to be a witness against himself;

(e)

Take any private property for a public use
without just compensation;

(f)

Deny to any person in a criminal
proceeding the right to a speedy trial, to
be informed of the nature and cause of the
accusation, to be confronted with the
witnesses against him, to have
compulsory process for obtaining
witnesses in his favor, and, at his own
expense, to have the assistance of counsel
for his defense;

(g)

Require excessive bail, impose excessive
fines, inflict cruel and unusual
punishments, and in no event impose for
conviction of any one offense any penalty
or punishment greater than
imprisonment for a term of one (1) year or
a fine of $5000 or both;

(h)

Deny to any person within its jurisdiction
the equal protection of its laws or deprive
any person of liberty or property without
due process of laws;

App. 97
(i)

Pass any bill of attainder or ex post facto
law; or

(j)

Deny to any person accused of an offense
punishable by imprisonment the right,
upon request, to a trial by jury of not less
than six (6) persons.

ARTICLE X – SOVEREIGN IMMUNITY
Section 1.

The sovereign immunity of the Rancheria
or any of its programs or business
ventures is hereby preserved.

Section 2.

The Community Council may provide an
explicit written waiver of tribal sovereign
immunity upon the approval of a majority
vote of voters voting at a meeting of the
Community Council duly called and
conducted in accordance with Article V of
this Constitution. The waiver must state
the extent and purposes for which the
waiver is granted.
ARTICLE XI – AMENDMENT

Section 1.

This Constitution and Bylaws may be
amended by a majority vote of the
qualified voters of the Community
Council at an election authorized for that
purpose by the Secretary of the Interior,
provided that at least thirty (30) percent
of those entitled to vote shall vote in such
election.

App. 98
Section 2.

Amendments, in writing, may be
proposed by any two (2) members of the
Community Council. The proposal shall
be referred to a committee appointed by
the Chairperson. The committee shall
report upon the proposal at the next
meeting of the Community Council at
which time a vote shall be taken as to its
submission to the Secretary of the
Interior. It shall be the duty of the
Secretary of the Interior to call an
election on any proposed amendment
upon receipt of a petition by one third
(1/3) of the qualified voters of the
community, or upon the submission of a
resolution duly adopted by a majority of
the Community Council. No amendment
shall become effective until it has been
adopted in an election called by the
Secretary of the Interior and approved by
him.

BY-LAWS OF THE CEDARVILLE RANCHERIA
MODOC COUNTY, CALIFORNIA
ARTICLE I – DUTIES OF OFFICERS
Section 1. Tribal Chairperson
• The Chairperson shall preside at all
meetings of the Community Council and of
the Executive Committee. He/She may
appoint another member of the Executive
Committee to preside temporarily when it is
necessary for him/her to be absent from a
meeting.

App. 99
• The Chairperson shall be the chief
executive officer of the community and
exercise any authority delegated to him by
the Community Council.
• The Chairperson shall attend meetings,
including, but not limited to, meetings with
Federal and State departments and contacts,
meetings regarding Economic Development
ventures, Tribal Leadership conferences, and
any other events that are determined to be
pertinent to the Tribe’s self-government.
• The Chairperson shall oversee all
Cedarville Rancheria matters, including
concerns, conflicts and any other issues, as
well as signing checks on behalf of the
Cedarville Rancheria for various Tribal expenses.
• The Chairperson shall be the authorized
point-of-contact, along with the Tribal
Secretary or Tribal Administrator, to sign
Tribal documentation, including grant
applications, MOUs, supply orders, trip
requests, etc.
• The Chairperson shall be knowledgeable
in the Constitution, By-laws, policies and
rules of the Tribe, including overall rules and
any rules pertaining to specific committees.
• The Chairperson shall be in constant
communication with Tribal members.
• The Chairperson shall show impartiality
with all Tribal members.
• The Chairperson shall demonstrate
business professionalism.
• The Chairperson shall promote the
participation of all Tribal members.

App. 100
• Any member interested in the position of
Chairperson shall attend trainings deemed
appropriate to the position.
Section 2. Vice Chairperson
• The Vice Chairperson shall assist the
Tribal Chairperson in meetings and daily
business and shall preside over meetings of
the Community Council and Executive
Committee in the absence of the
Chairperson, and when so presiding shall
have the privileges, duties, and
responsibilities of the Chair.
• The Vice Chairperson shall attend
meetings and conferences on the
Chairperson’s behalf when the Chairperson
is unavailable to attend.
• The Vice Chairperson shall assist as
necessary in overseeing the financial issues
of the Cedarville Rancheria, including
confirmation that the Financial Report is
done accurately and in a timely manner.
• The Vice Chairperson shall be
responsible, along with the Tribal
Chairperson, for signing checks on behalf of
the Cedarville Rancheria for various Tribal
expenses.
• The Vice Chairperson shall be
knowledgeable in the Constitution, By-laws,
policies and rules of the Tribe, including
overall rules and any rules pertaining to
specific committees.
• The Vice Chairperson shall actively
communicate with the Chairperson and

App. 101
Tribal members regarding task updates.
• The Vice Chairperson shall show
impartiality to all Tribal members.
• The Vice Chairperson shall review the
monthly newsletter.
Section 3. Tribal Secretary
• The Secretary shall be sure all
correspondence affecting the Rancheria is
properly distributed and handled by the
Staff.
• The Secretary shall confirm accuracy in
Community Council and Executive
Committee meeting minutes, as well as
ensure they are completed in a timely manner.
• The Secretary shall work closely with the
Chairperson to ensure meeting minutes and
correspondence accuracy.
• The Secretary shall oversee meeting
preparation, including creating of the agenda
and additional attachments.
• The Secretary shall be the authorized
point-of-contact, along with the Tribal
Chairperson, to sign Tribal documentation,
including grant applications, MOUs, meeting
minutes, etc.
• The Secretary shall be knowledgeable in
the Constitution, By-laws, policies and rules
of the Tribe, including overall rules and any
rules pertaining to specific committees.

App. 102
ARTICLE II – OATH OF OFFICE
Section 1.

Each officer, elected or appointed
hereunder, shall take an oath of office
prior to assuming the duties thereof, by
which oath he shall pledge himself to
support and defend the Constitution of
the United States and this Constitution
and Bylaws. Oath: I, _______________ , do
solemnly swear that I will support and
defend the Constitution of the United
States against all enemies; that I will
carry out, faithfully and impartially, the
duties of my office to the best of my
ability; that I will promote and protect
the best interest of my Rancheria in
accordance with the Constitution and
Bylaws of the Cedarville Rancheria.

ARTICLE III – ORDER OF BUSINESS
Section 1.
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.

The following order of business is hereby
established for all meetings:
Call to order by the Chairperson.
Roll call.
Ascertainment of a quorum.
Reading of the minutes of the last
meeting.
Adoption of the minutes by voice vote.
Budget report.
Unfinished business.
Reports.
New Business.
Adjournment.

App. 103
ARTICLE III – ADOPTION
This Constitution and Bylaws, when adopted by a
majority of vote of the qualified voters, voting at an
election authorized for that purpose by Secretary of the
Interior, provided that at least thirty (30) percent of
those entitled to vote in such election, shall be
submitted to the Secretary of the Interior for approval,
and if approved, shall be effective from the date of such
approval.

